App. 1
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3711
-----------------------------------------------------------------------

PETER BROWNSTEIN,
Appellant
v.
TINA LINDSAY; ETHNIC TECHNOLOGIES, LLC
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(No. 3-10-cv-1581)
District Judge: Hon. Freda L. Wolfson
-----------------------------------------------------------------------

Argued November 20, 2019
Before: CHAGARES, MATEY, and FUENTES,
Circuit Judges
(Opinion filed: May 18, 2020)
Jay R. McDaniel, [ARGUED]
Weiner Law Group
629 Parsippany Road
Parsippany, NJ 07054
Counsel for Appellant

App. 2
Jesse C. Klaproth, [ARGUED]
Klaproth Law
Suite 800
1500 Walnut Street
Philadelphia, PA 19102
Counsel for Appellees.
-----------------------------------------------------------------------

OPINION*
-----------------------------------------------------------------------

MATEY, Circuit Judge.
Innovators have long recognized that “[m]any
ideas grow better when transplanted into another
mind than in the one where they sprang up.” Oliver
Wendell Holmes, Sr., The Breakfast Table Series: The
Poet at the Breakfast Table 146 (1900). So the law encourages collaboration and rewards authors of a joint
work with the benefits of joint ownership. Peter
Brownstein seeks a declaration of joint ownership in a
computer program he developed with Tina Lindsay
and an accounting of profits. The District Court
granted summary judgment to Lindsay and her company, Ethnic Technologies (“E-Tech”), seeing no proof
of Brownstein’s role. We will affirm.

* This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7, does not constitute binding precedent.

App. 3
I.

BACKGROUND

In 1993, Lindsay began compiling a set of rules in
order to “predict” a person’s ethnicity. Brownstein v.
Lindsay, 742 F.3d 55, 59 (3d Cir. 2014). She knew the
concept had value given her employment at List Services Direct, Inc., a direct-marketing company that
sold customer lists. Id. at 58–59. So she enlisted
Brownstein, a fellow List Services employee, to transform her rules into a computer program. Id. at 59.
Lindsay’s rules were known as the Ethnic Determinate
System (“EDS”), and Brownstein’s computer code was
called “ETHN.” Id. Together, EDS and ETHN became
the Lindsay Cultural Identification Determinate
(“LCID”). Id.
In 1996, List Services asserted ownership of the
LCID, prompting Lindsay and Brownstein to leave the
company in June 1997. Id. at 60. List Services, Lindsay,
and Brownstein later signed a Settlement Agreement
in which Lindsay and Brownstein “agree[d] not to
claim ownership or any other rights” to “a certain computer program concerning ethnic selections” that List
Services was “presently using,” and List Services “disclaim[ed] any ownership to EDS.” (App. at 317–18.)
Years later, things soured between Lindsay and
Brownstein, and they parted ways. Brownstein, 742
F.3d at 61.
In 2010, Brownstein filed this lawsuit, seeking a
declaration that he is co-owner of the LCID and an accounting of any profits Lindsay and E-Tech earned
from the program after May 2010. Id. at 61–62. The

App. 4
case proceeded to trial and, at the close of Brownstein’s
evidence, the District Court granted judgment as a
matter of law to the defendants. The District Court
held that Brownstein’s claims were barred by the statute of limitations and, in any event, that Brownstein
lacked evidence showing his co-authorship of the
LCID. Id. at 62–63. We reversed on appeal, holding
that the accrual date of Brownstein’s claims was a jury
question. Id. at 69–75. And we relied on an oral argument concession by defendants’ counsel “that Brownstein and Lindsay were co-authors of the LCID up
until its 1997 iteration” to remand for further factual
development of the co-authorship issue.1 Id. at 65, 77.
On remand, Brownstein filed an amended complaint, which Lindsay and E-Tech then moved to dismiss. After converting that motion into a motion for
summary judgment, the District Court held that the
Settlement Agreement extinguished Lindsay and
Brownstein’s rights to all pre-Settlement-Agreement
versions of the LCID. (App. at 26.) The District Court
then described the “operative question” as whether
post-Settlement-Agreement versions of the LCID “continued to use [Brownstein]’s computer code.” (App. at
26.) Although Brownstein submitted an affidavit describing his work on the LCID, and copies of text purporting to be relevant computer code, the District
Court rejected the affidavit as “conclusory” and the
code as “not self-evident.” (App. at 29.) For those
1

We also reversed an order by the District Court that cancelled certain copyright registrations. Brownstein, 742 F.3d at 58,
63, 77. That issue is not relevant to this appeal.

App. 5
reasons, the court found that Brownstein failed to sustain his burden of production, and again granted summary judgment to the defendants. This timely appeal
followed.2
II.

DISCUSSION

Brownstein raises three issues on appeal. First, he
argues that the District Court erroneously interpreted
the Settlement Agreement as “sever[ing]” or “deconstruct[ing]” the LCID, (Opening Br. at 28–29), in contravention of established copyright principles, and that
defendants’ continued use of Lindsay’s rules, by itself,
entitles him to compensation.
It is true that “[t]he authors of a joint work are co[]owners of copyright in the work,” 17 U.S.C. § 201(a),
and that each joint author acquires “an undivided ownership in the entire work, including all the contributions contained therein.” Nimmer on Copyright § 6.03
(2019); see 17 U.S.C. § 101 (“A ‘joint work’ is a work prepared by two or more authors with the intention that
their contributions be merged into inseparable or interdependent parts of a unitary whole.” (emphasis
added)). But as we previously noted, the EDS was an
“independent work,” of which Lindsay was the “sole author.” Brownstein, 742 F.3d at 59. And merely using the
EDS in the LCID did not affect Lindsay’s ownership of
2

The District Court had jurisdiction under 28 U.S.C.
§§ 1331, 1338, and 1367. We have jurisdiction under 28 U.S.C.
§ 1291, and again exercise plenary review over the District
Court’s grant of summary judgment. Brownstein, 742 F.3d at 64.

App. 6
her rules, nor give Brownstein any rights in them. Cf.
Greene v. Ablon, 794 F.3d 133, 153 (1st Cir. 2015) (noting that a work “may be both joint and derivative, with
[the original work’s author] owning the copyright in
the underlying work . . . and co-owning the copyright
in the derivative work”). So the District Court did not
split the joint-work atom; instead, it correctly interpreted the Settlement Agreement as abrogating both
parties’ interest in the LCID. And it was not improperly depriving Brownstein of any rights in the EDS,
since he had none to begin with.
Second, Brownstein argues that the Settlement
Agreement did not transfer any copyrights, but merely
evidenced the parties’ decision to “waive[ ] any rights
of enforcement they might have had” against the other.
(Opening Br. at 43.) But this argument ignores language in the Settlement Agreement acknowledging
that List Services and its executives were the “sole
owner(s)” of “a certain computer program concerning
ethnic selections” that List Services was “presently using.” (App. at 317-18) (emphasis added). Lindsay and
Brownstein weren’t agreeing to cooperatively share
the pre-Settlement-Agreement LCID with List Services; they were recognizing they no longer “owne[d]”
any of it, including its copyrights.
Third, and finally, Brownstein argues that the District Court ignored evidence of his post-SettlementAgreement authorship contribution to the LCID. We
need not address this issue, since even if Brownstein
co-authored some post-Settlement-Agreement version
of the LCID, he has failed to demonstrate that Lindsay

App. 7
and E-Tech profited from that version, or a derivative
thereof, in May 2010 or afterward. His complaint concedes that any code he authored was “phased out” of
defendants’ programs long ago. (App. at 231.) As noted
above, he never had any rights in the EDS itself, so
continued use of those rules entitles him to nothing.
And he does not otherwise explain, or offer evidence to
show, how defendants’ post-May-2010 product was derivative of any earlier one.
III.

CONCLUSION

As we noted in our previous opinion, Brownstein
could prevail only if he demonstrated that defendants
profited either from a work he jointly authored, or from
a derivative. Brownstein, 742 F.3d at 67–68. Because
he has done neither, his claims fail. We will therefore
affirm the District Court’s grant of summary judgment.

App. 8
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3711
-----------------------------------------------------------------------

PETER BROWNSTEIN,
Appellant
v.
TINA LINDSAY; ETHNIC TECHNOLOGIES, LLC
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(No. 3-10-cv-1581)
District Judge: Hon. Freda L. Wolfson
-----------------------------------------------------------------------

Argued November 20, 2019
Before: CHAGARES, MATEY, and FUENTES,
Circuit Judges
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

This cause came to be considered on the record
from the United States District Court for the District
of New Jersey, and was argued on November 20, 2019.
On consideration whereof, it is now hereby ORDERED and ADJUDGED by this Court that the order of the District Court entered on November 28,

App. 9
2018, is hereby AFFIRMED. Costs to be assessed
against Appellant.
All of the above in accordance with the Opinion of
this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: May 18, 2020
Costs taxed in favor of Appellees Ethnic Technologies
LLC and Tina Lindsay as follows:
Brief

$489.50

Appendix

$2,052.75

TOTAL

$2,542.25

App. 10
*NOT FOR PUBLICATION*
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
PETER BROWNSTEIN,
Plaintiff,
v.
TINA LINDSAY, et al.,
Defendants.

:
Civ. Action No.:
:
10-1581 (FLW)
:
OPINION
:
: (Filed: Nov. 28, 2018)
:
:
:

WOLFSON, District Judge:
In this protracted litigation, Plaintiff Peter
Brownstein (“Plaintiff ” or “Brownstein”) brought this
case under the Copyright Act seeking a declaratory
judgment of joint authorship of an ethnic identification
system that he purportedly created with defendant
Tina Lindsay (“Lindsay”).1 A trial was held in this case;
however, before a verdict was reached by the jury,
Judge Pisano, inter alia, granted judgment as a matter
of law on the joint authorship claim in favor of Lindsay
and co-defendant Ethnic Technologies, LLC (collectively, “Defendants”).2 On appeal, the Third Circuit reversed that decision in Brownstein v. Lindsay, 742 F.3d
1

This matter was initially assigned to the now-retired Hon.
Joel A. Pisano, U.S.D.J. The case was transferred to this Court
after the Third Circuit reversed Judge Pisano’s trial decision
granting judgment as a matter of law.
2
While other substantive decisions were made, the only relevant one to this Opinion is Judge Pisano’s Rule 50(a) decision.

App. 11
55 (3d Cir. 2014). After remand, I directed Plaintiff to
amend his complaint consistent with the undisputed
facts that were determined during the first trial, which
were recounted by the circuit court in its published decision. Upon amendment, Defendants moved for dismissal pursuant to Fed. R. Civ. P. 12(b)(6), which
motion this Court converted to summary judgment.
Subsequently, the parties filed supplemental submissions. For the reasons set forth herein, Defendants’ motion for summary judgment is GRANTED.
BACKGROUND and PROCEDURAL HISTORY
I.

The Ethnic Determinant System Copyright

At the outset, I note that the following facts are
undisputed unless otherwise noted, and to understand
the complexity of this case, I start from the filing of the
Complaint in 2010.3 In March 2010, Brownstein
brought this suit seeking a declaratory judgment that
3

Since the parties are well acquainted with the facts after
years of litigation, I need not cite to the record with regards to the
undisputed historical facts of this case. Importantly, these facts
are also well documented in various decisions, including the Third
Circuit’s opinion in Brownstein. Furthermore, I note that Plaintiff
takes issue with certain factual findings made during the first
trial and in subsequent decisions, including Brownstein, and argues that this Court should not adopt those facts; however, Plaintiff cannot now re-litigate issues that have already been decided.
Rather, I am bound by those determinations. See Pub. Interest
Research Grp. of New Jersey, Inc. v. Magnesium Elektron, Inc.,
123 F.3d 111, 116 (3d Cir. 1997) (“The law of the case doctrine
directs courts to refrain from re-deciding issues that were resolved earlier in the litigation.”).

App. 12
he is a co-author of a joint work for which Lindsay registered a copyright in 1996. This copyright, also known
as the Ethnic Determinant System (“EDS”), developed
rules for computer programs to predict and categorize
people’s names by ethnicity.
At the time the EDS was conceived, Brownstein
and Lindsay worked together at Future Prospective
Clients, a direct mailing list company, that later
changed its name to List Services Direct, Inc. (“LSDI”).
Because of their working relationship, in January
1994, Lindsay enlisted Brownstein’s expertise to turn
her rules into computer codes. Brownstein, for his part,
created a number of computer programs, which were
known as the ETHN programs, that, inter alia, converted lists of names into data format and turned EDS
rules into code. The combined product of the EDS and
the ETHN programs was named the Lindsay Cultural
Identification Determinant (“LCID”). In that regard, as
the Third Circuit has recognized, “Lindsay was the sole
author of the EDS, as an independent work of the
LCID, Brownstein was the sole author of the ETHN
programs, as another independent work of the LCID,
and they both had an equal authorship interest in the
LCID as a joint work of the EDS and ETHN programs.”
Brownstein, 742 F.3d at 59.
In June 1996, Lindsay and Brownstein founded
TAP Systems, Inc. (“TAP”) to commercialize the LCID.
In that regard, the LCID was licensed to TAP, and in
turn, the company licensed the program to its customers. Each of them owned TAP equally. However, despite
operating TAP, Lindsay and Brownstein continued to

App. 13
work at LSDI. Earlier that year, in February 1996,
Lindsay, alone, received her first copyright registration
for the EDS (the “872 registration”). In December 1996,
Lindsay also obtained a second copyright registration
for an updated version the EDS (the “127 registration”), which was the derivative work of the first version. With that registration, Lindsay included a copy of
Brownstein’s ETHN programs and referenced a computer process and codes associated with the copyright.
In late 1996, Lindsay and LSDI disputed the ownership of the EDS copyrights. LSDI demanded that
both the EDS and the LCID were owned by the company since Lindsay and Brownstein created those
works while working at LSDI. Because Lindsay vehemently disagreed, tension between LSDI management
and the partners intensified to a point where both
Lindsay and Brownstein resigned from LSDI in June
1997. Thereafter, LSDI brought a lawsuit against, inter
alia, Lindsay, Brownstein and Tap over Lindsay’s copyrighted works, claiming that they were created as
works for hire. The suit eventually settled in September 1998 (the “1998 LSDI Settlement Agreement”).
Significantly, the terms of that settlement agreement
substantially impacted the rights of the parties in this
case vis-à-vis the EDS copyrights, particularly Brownstein. The pertinent portions of the 1998 LSDI Settlement Agreement are set forth as follows:
1.

The parties acknowledge and agree that
LSDI is presently using a computer program
concerning ethnic selections (hereinafter
called the “LSDI Program”). Lindsay, Nelson,

App. 14
Brownstein, TAP, CMR4 and ET agree not to
claim ownership or any of the rights to the
LSDI program, any aspect thereto, nor to
any modifications, nor any derivative work
thereof, and agree not to make any claim that
the LSDI Program or any aspect thereto, any
modifications or derivative work thereof violates any of their rights, whether involving,
but not limited to copyright, trademark, trade
secret, proprietary property, or infringement
of any of the foregoing, and agree to release
LSDI and Raskin5 from any such claims that
may exist, except as otherwise provided
herein. Lindsay, Nelson, Brownstein, TAP,
CMR and ET acknowledge that Raskin and/or
LSDI are/is the sole owners(s) of the LSDI
Program.
2.

4

The parties acknowledge and agree that all
parties have made claim to the right to exclusive ownership of EDS, a work entitled “An
Ethnic Determinant System – Knowledge and
Rule/Exception Basis” (hereinafter called
“EDS”), any therefore, and derivative work
thereof. As part of this settlement, LSDI and
Raskin disclaim any ownership to EDS and
any derivative work thereof, except as otherwise provided herein.

Consumer Marketing Research, Inc., also known as CMR,
was one of Lindsay’s former employers. Ginger Nelson was one of
CMR’s executives. I will further explain these parties, infra.
5
Tom Raskin was an executive at LSDI.

App. 15
3.

The parties acknowledge and agree that Tina
Lindsay obtained a Certificate of Registration
. . . for EDS which may be called LCID.
*

9.

*

*

Lindsay, ET, TAP, CMR, Nelson and Brownstein disclaim any ownership to the LSDI
Program and any aspect thereto, any modifications and derivative work thereof, provided
any such derivative work is independently developed by LSDI or Raskin, or is obtained
with the permission of the other parties to
this settlement Agreement who have the ownership of such derivative work of EDS, subject
to the agreement that none of the parties to
this Settlement Agreement is under any obligation to provide LSDI with anything further
than that which LSDI has in its possession as
of the date hereof.

10. LSDI and Raskin relinquish and disclaim any
ownership claims to those items set forth in
paragraphs 2,3,4,5, and 6 above, and any aspect thereof, any modification and derivative
work thereof, except as provided for herein.
*

*

*

13. Lindsay, TAP Nelson, Brownstein, CMR and
ET relinquish any claims they have against
LSDI or Raskin regarding the use of the LSDI
Program, EDS and E-Tech to the extent presently in the possession of LSDI or Raskin, and
subject to the provisions of paragraph 19 or
any program used or owned by any of them,
including those items set forth in paragraphs
2, 3, 4, 5, or 6 or any aspect thereof, any

App. 16
modification or derivative work thereof or any
aspect thereto by LSDI and/or Raskin, unless
in violation of this settlement agreement.
14. LSDI and Raskin relinquish any claims they
have against Lindsay, ET, TAP, CMR, Nelson
and Brownstein regarding the use of EDS or
any program used or owned by LSDI or
Raskin or any derivative work thereof or any
aspect thereof by Lindsay, ET, TAP, CMR, Nelson and Brownstein unless in violation of this
Agreement.
LSDI Settlement Agreement, pp. 1-4. Essentially,
based on these provisions, Lindsay retained sole ownership of the EDS, but Lindsay and Brownstein both
relinquished any interest in the programs that the pair
had created while employed at LSDI, including any derivative works based upon those programs. In other
words, pursuant to the terms of the settlement, Brownstein and Lindsay could no longer utilize the version of
the LCID program developed by them while employed
at LSDI.
II.

Lindsay and Brownstein’s Business Ventures

Around the same time Lindsay and Brownstein
left their employment at LSDI, Lindsay began to pursue new business ventures to promote the LCID. In
late 1997, TAP partnered with CMR to create a new
business venture. In that connection, prior to the LSDI
settlement, the parties entered into a licensing agreement in September 1997, wherein TAP and CMR
agreed to combine CMR’s then-technology with the

App. 17
LCID, later referred to as “E-Tech.” The new business
entity formed by the combination of CMR and TAP was
known as Ethnic Technologies, LLC (“ET”), a named
defendant in this case. Thereafter, ET began licensing
E-Tech to other businesses. In December 2000, after
the LSDI settlement, TAP and CMR revised their
agreement and again set forth the fact that the two
companies have combined TAP’s assets with CMR’s assets to form ET. After the signing of this agreement, ET
continued to license E-Tech to other companies, with
Plaintiff signing certain licensing agreements between
2000-2005.
III. The Lawsuits
The business relationship between Lindsay and
Brownstein deteriorated some time after their joint
business ventures. As a result, Brownstein left ET in
May 2009, and filed an oppressed shareholder lawsuit
in New Jersey state court against Lindsay and ET. This
litigation was settled in May 2010. Pursuant to the
2010 agreement, 1) the terms of that settlement would
not affect Brownstein’s right to pursue the current
lawsuit, which was pending; 2) Brownstein agreed to
relinquish his interests in ET, and 3) released the defendants (Lindsay and ET) and Brownstein from related claims. Specifically, Brownstein agreed to
relinquish his right, title, and interest as a “shareholder, officer, employee or director in TAP or as manager, partner, member, officer, director or employee of
E-Tech.” 2010 Settlement Agreement, ¶ 2.6. During
this period, Brownstein filed for his own copyright

App. 18
registrations in December 2009, which purportedly
covered his ETHN programs.
In March 2010, 14 years after the date of Lindsay’s
copyright registrations, Brownstein filed the present
lawsuit seeking to protect his joint authorship of the
LCID. In his First Amended Complaint, the operative
version that proceeded to trial, Plaintiff states that
“this is an action brought under the federal copyright
law seeking a declaratory judgment that plaintiff Peter
Brownstein is the co-author of a joint work for which
defendant Tina Lindsay registered two copyrights in
1996 and that he is entitled to continue receiving a reasonable royalty for the exploitation of the joint work.”
First Am. Compl., ¶1. In other words, the gist of this
case – prior to trial – centered on Plaintiff ’s claim that
he should be declared a joint author of Lindsay’s 1996
copyrights associated with the EDS.6
The case proceeded to a jury trial before Judge Pisano. However, at the end of Plaintiff ’s case, and prior
to the defense case, Defendants moved for judgment as
a matter of law pursuant to Rule 50, which was
granted. Specifically, Judge Pisano rejected the claim
that Brownstein was a joint author of the EDS based
on statute of limitations grounds. In that regard, it was
found that because Brownstein had adequate notice of
his authorship claim more than three years prior to

6

Plaintiff also asserted three separate counts, i.e., constructive trust, resulting trust and replevin, that were dismissed at
trial by Judge Pisano. Those counts are not at issue here.

App. 19
filing his complaint, under the Copyright Act, he was
timed barred from bringing suit.7 Plaintiff appealed.
IV. The Third Circuit’s decision in Brownstein
Regarding the joint authorship claim, the Third
Circuit addressed two factual questions: 1) whether
Brownstein is a co-author of the LCID; and 2) whether
his claim is barred by the statute of limitations. With
respect to the first question, the circuit court, relying
on a concession made at oral argument by defense
counsel, found that Brownstein and Lindsay were coauthors of the LCID up until its 1997 iteration.8 The
Third Circuit reasoned:
This concession means that Appellees admit
that Brownstein contributed a non-trivial
amount of creative expression to the LCID
through his work on the ETHN programs and
that Lindsay intended for the EDS to be combined with the computer code he drafted to
7

Judge Pisano also granted judgment in favor of Defendants
on their counterclaim, which claim sought to cancel Brownstein’s
copyright registered in 2009. The Third Circuit reversed, reasoning that courts have “no authority to cancel copyright registrations because there is no statutory indication whatsoever that
courts have such authority.” Brownstein, 742 F.3d at 75. The cancellation issue is not relevant here.
8
After remand, the parties, and this Court, questioned the
legitimacy of this particular concession by counsel. Indeed, Defendants maintained that the circuit court did not – and cannot –
make factual findings in the context of an appeal proceeding. Notwithstanding the plausibility of such an argument, I need not address this issue, because this factual determination is ultimately
immaterial to the resolution of the disputes raised on this motion.

App. 20
form the LCID. Moreover, this framework concedes that the EDS and the ETHN programs
are interdependent works, which comports
with Lindsay’s assertions. In both the 1997
Software License and her testimony at trial,
she admitted that her rules and Brownstein’s
code were inseparable. (App. 1050 (Trial Tr.
256:1 (“[The] LCID had to have programs.”)).)
In Schedule A of the license, she wrote that
the “series of computer programs” and “system data” of the LCID were “irrevocably
entwined”. (App. 668 (Software License Agreement, Schedule A).)
Brownstein, 742 F.3d at 65.
The Third Circuit went on to find that, as a matter
of law, because the EDS and the LCID are distinct
works with distinct copyrights, Lindsay’s copyright
registrations in 1996 did not cover the LCID or Brownstein’s own work in the ETHN programs. The court rejected the argument that by submitting Brownstein’s
code in the form of a deposit copy with her copyright
application did not mean that Lindsay could unilaterally claim rights to the ETHN programs or the LCID.
Indeed, the court found that “Brownstein [ ] remain[ed]
a co-author and co-owner [of the LCID] because copyright registration does not establish the copyright. . . .
Consequently, Lindsay’s copyright registrations, if anything, are merely placeholders for the indivisible joint
rights she inherently had in the EDS and the LCID
with Brownstein.” Id. at 67.

App. 21
Following that discussion, the Third Circuit made
certain legal conclusions regarding Brownstein’s own
work and contribution to the LCID that are critical to
the motion here:
Brownstein had copyrights exclusively in his
ETHN programs as an independent work and
non-exclusively in the LCID as a co-author. In
addition, he also had copyrights to whatever
new generations of the ETHN programs and
LCID that he created as “derivative works” of
his first set of ETHN programs and the LCID.
Therefore, although LSDI retained rights to
the ETHN programs that were considered the
“LSDI Program” in the 1998 Settlement
Agreement, the subsequent generations of
ETHN programs that Brownstein developed
[would remain] under his ownership because
they were derivative works of the LSDI Program. Brownstein’s 2009 copyright registrations would, therefore, cover any post-1998
generations of the ETHN programs that were
not covered by the 1998 Settlement Agreement with LSDI.
Id. Importantly, the court left open the very factual
question dispositive on this motion: to what extent did
the 1998 LSDI Settlement Agreement abrogate
Brownstein’s ownership of the pre-1998 generations of
the LCID. More importantly, the court further noted
that while it is possible that the later versions of the
LCID continued to employ the code created by Brownstein, it is incumbent upon him to make that evidentiary showing. Id.

App. 22
After finding that Plaintiff is a co-author of the
LCID, the court discussed the issue of statute of limitations. Although this part of the Third Circuit’s analysis is of little relevance here, I will nevertheless
summarize it. Judge Pisano found that the operative
statute of limitations started to run when Lindsay registered her copyrights in 1996, which also served as
constructive notice to Plaintiff. Judge Pisano also
found that Brownstein not only had Lindsay’s copyright registrations in his possession but that he also
had “actual knowledge” through the series of licensing
agreements signed by Plaintiff, all of which showed
that Lindsay was holding herself out as the sole author
of the LCID. The circuit court disagreed. First, the
court held that a copyright registration, standing
alone, does not serve as repudiation of joint authorship. Id. at 71. Second, the court determined a jury
question remains as to whether any of the agreements
signed by Plaintiff, e.g., the 1997 Software License, the
1997 Agreement the 2000 Agreement, the 2010 state
court settlement agreement and ET’s licensing agreements between 2000-2005, served as an express repudiation of Brownstein’s authorship by Lindsay.9 Id. at
75.
V.

The Third Amended Complaint

Following remand, Plaintiff ’s Complaint, as it was
pled, was no longer viable because Plaintiff ’s claim
9

After the filing of the Third Amended Complaint, in lieu of
an answer, Defendants moved to dismiss Plaintiff ’s declaratory
judgment claim on the merits. They did not, however, move on
statute of limitations grounds.

App. 23
sought a declaration of joint authorship over the 1996
copyrighted works registered by Lindsay. See Am.
Compl., ¶¶ 1, 29. Based on the Brownstein decision, the
Third Circuit found that the 1996 registered works,
i.e., EDS, belonged to Lindsay. Thus, the remaining
question is whether any derivatives of the LCID, which
is the joint work of Brownstein and Lindsay, continued
to being utilized by ET without compensating Plaintiff.
That is the theory of the case Plaintiff was permitted
to amend. In his Third Amended Complaint, which is
the operative Complaint on this motion, Plaintiff
changed course. In the newly amended declaratory
judgment claim, Plaintiff alleges that the “LCID/TAP
System was a joint work, incorporating the encoding
rules and codes authored by Lindsay and the programs
written by Brownstein. Brownstein and Lindsay are
the co-authors of the copyrighted work as provided for
by the Copyright Act, 17 U.S.C. § 101, et seq.” Third Am.
Compl., ¶ 17. Brownstein alleges that Lindsay and ET
have expressly repudiated Brownstein’s joint authorship of the copyrights in the LCID/TAP System and its
derivatives and have failed to account . . . to Brownstein for the profits derived from the joint work in direct conflict with ownership rights.”10 Id. at ¶ 19.
After Brownstein filed his Third Amended Complaint, rather than answering, Defendants moved for
dismissal under Rule 12(b)(6). Because the facts are
largely undisputed following remand, I converted the
10

While Plaintiff also included a new copyright infringement
claim, he voluntarily withdrew that claim on this motion, and in
an Order dated August 6, 2018, I dismissed that claim.

App. 24
motion to a summary judgment motion and requested
the parties to submit any additional briefing or evidence. Having considered supplemental submissions, I
conclude that Plaintiff has failed to prove that he is a
joint author of the LCID/TAP System following the
1998 LSDI Settlement Agreement. Below is my reasoning.
DISCUSSION
I.

Standard of Review

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see also Garges v.
People’s Light & Theatre Co., 529 F. App’x 156, 160 (3d
Cir. 2013), judgment entered, No. 13-1160, 2013 WL
3455818 (3d Cir. June 28, 2013) (“Summary judgment
is proper where there is no genuine issue of material
fact to be resolved and the moving party is entitled to
judgment as a matter of law” (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986))). If a fact is capable
of affecting the substantive outcome of the litigation, it
is “material.” See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A dispute is “genuine” if the evidence is such that a reasonable jury could return a verdict for the nonmoving party. See Scott v. Harris, 550
U.S. 372, 380 (2007) (“Where the record taken as a
whole could not lead a rational trier of fact to find for
the nonmoving party, there is no ‘genuine issue for
trial’ ” (internal citations omitted)); Anderson, 477 U.S.

App. 25
at 248. In deciding a motion for summary judgment, a
court must draw all inferences from the underlying
facts in the light most favorable to the party opposing
the motion. Garges, 529 F. App’x at 160. The party moving for summary judgment bears the burden of establishing that no genuine issue of material fact remains.
See Celotex Corp., 477 U.S. at 322-23.
“Once the moving party has properly supported its
motion for summary judgment, the nonmoving party
must ‘do more than simply show there is some metaphysical doubt as to the material facts.’ ” Garges, 529
F. App’x at 160 (quoting Matsushita Elec. Indus. Co. v.
Zenith Radio, 475 U.S. 574, 586 (1986)). Indeed, the
party opposing the motion may not rest on mere allegations or denials in his pleading, see id. at 160; rather,
the nonmoving party must present actual evidence
that creates a genuine issue as to a material fact for
trial, Anderson, 477 U.S. at 248-49; see also Fed. R. Civ.
P. 56(c)(1)(A) (explaining that in order for the party opposing summary judgment to show “that a fact cannot
be or is genuinely disputed,” he must cite “to particular
parts of materials in the record, including depositions,
documents, electronically stored information, affidavits or declarations, stipulations (including those made
for purposes of the motion only), admissions, interrogatory answers, or other materials” to support his factual position). “[W]ith respect to an issue on which the
nonmoving party bears the burden of proof . . . the burden on the moving party may be discharged by ‘showing’ – that is, pointing out to the district court – that
there is an absence of evidence to support the

App. 26
nonmoving party’s case.” Celotex, 477 U.S. at 325.
“[U]nsupported allegations . . . and pleadings are insufficient to repel summary judgment.” Schoch v. First
Fid. Bancorporation, 912 F.2d 654, 657 (3d Cir. 1990).
After discovery, if the nonmoving party “fails to make
a showing sufficient to establish the existence of an element essential to that party’s case, and on which that
party will bear the burden of proof at trial, . . . there
can be ‘no genuine issue of material fact,’ since a complete failure of proof concerning an essential element
of the nonmoving party’s case necessarily renders all
other facts immaterial.” Katz v. Aetna Cas. & Sur. Co.,
972 F.2d 53, 55 (3d Cir. 1992) (quoting Celotex, 477 U.S.
at 322-23); see also Giles v. Kearney, 571 F.3d 318, 322
(3d Cir. 2009) (“The mere existence of some evidence in
support of the nonmovant is insufficient to deny a motion for summary judgment; enough evidence must exist to enable a jury to reasonably find for the
nonmovant on the issue” (citing Anderson, 477 U.S. at
249)). Importantly, in circumstances where the nonmoving party is pro se, such as here, “the court has an
obligation to construe the complaint liberally.” Giles,
571 F.3d at 322 (citing Haines v. Kerner, 404 U.S. 519,
520-21 (1972); Gibbs v. Roman, 116 F.3d 83, 86 n.6 (3d
Cir. 1997)).
II.

Joint Authorship

To better understand Plaintiff ’s newly minted theory of joint authorship, I turn first to his Complaint.
According to Plaintiff, the LCID, the joint work of Lindsay and Brownstein, was licensed to ET, the company

App. 27
formed by TAP and CMR, through various cooperative
agreements with CMR. A derivative work, E-Tech, was
formed by combining CMR’s technology and the LCID.
Plaintiff maintains that he is the co-owner of E-Tech
because it is a derivative of the LCID. Indeed, Plaintiff
acknowledges that since the formation of TAP in 1996
until 2010, when he sold his shares in TAP and resigned as a manager of ET pursuant to the terms of the
settlement in the oppressed shareholder lawsuit, he
and Lindsay shared equally in the profits generated
through TAP, which were derived by the licensing of ETech. Third Am. Compl., ¶ 22. Plaintiff claims that
since his departure in 2010, ET has continued to create
derivative works from E-Tech for which he did not receive profits; moreover, Plaintiff asserts that Lindsay
has failed and refused to account to Brownstein as the
co-author of the LCID/TAP System. Essentially, Plaintiff ’s case boils down to his position that as a co-author
of the LCID since 1996, Brownstein is entitled to profits of any derivative works that were created from the
LCID during the period of 2010 to the present. I am
not persuaded by Plaintiff ’s simplistic view of the
facts, particularly since he has not carried his burden
of proving that he is a co-author of the later version of
the LCID that was licensed to TAP or ET after the 1998
LSDI Settlement Agreement.
In Brownstein, the Third Circuit expounded that
“[f ]or two or more people to become co-authors, each
author must contribute some non-trivial amount of
creative, original, or intellectual expression to the
work and both must intend that their contributions be

App. 28
combined.” Brownstein, 742 F.3d at 64 (citing Melville
B. Nimmer & David Nimmer, Nimmer on Copyright
§ 6.07 and Gaiman v. McFarlane, 360 F.3d 644, 658-59
(7th Cir. 2004)). Indeed, as the circuit court put it,
“[t]he components must also be ‘inseparable or interdependent’ parts of a whole but each co-author’s contribution need not be equal for them to have an equal
stake in the work as a whole.” Id. at 65 (citing 17 U.S.C.
§ 101 and Nimmer on Copyright § 6.03). In that regard,
when two or more people create a “joint work”, they become co-authors and co-owners of that work, “each entitled to undivided ownership in the entire work.” Id.
at 64 (citations and quotations omitted). Notably, the
Third Circuit, for the first time in Brownstein, explained that this type of ownership interest “vests from
the act of creating the work, rather than from any sort
of agreement between the authors or any act of registration with the Copyright Office.” Id.
Here, in his opposition, citing to the Copyright Act,
Plaintiff argues that he has no obligation to prove that
his code survives to this day; rather, according to Plaintiff, so long as E-Tech is derived from the joint work of
Brownstein and Lindsay, Plaintiff is entitled to compensation. In that connection, Plaintiff claims that because the LCID is a joint work, he has an undivided
interest in the whole as joint tenants for the duration
of the copyrights. I disagree. In order for Brownstein to
defeat summary judgment, he must present some evidence to show that he is a co-author of the version of
the LCID that was licensed to ET to create derivative
works. And, on that point, Brownstein has failed.

App. 29
While it is undisputed that Brownstein is a coauthor of the LCID, the important distinction that
must be drawn – which was highlighted by the Third
Circuit – is that Brownstein co-owned the LCID “up
until its 1997 iteration,” before he entered into a settlement agreement with LSDI. Brownstein, 745 F.3d at
65. This distinction has a significant legal implication
on Brownstein’s rights as co-owner of the LCID.
As I mentioned earlier in this Opinion, the lawsuit
brought by LSDI was pending around the same time
TAP entered into a Software License Agreement with
CMR in September 1997. In that agreement, signed
solely by Lindsay on behalf of TAP, TAP and CMR
formed a new business, and both companies combined
their licensed technology to create E-Tech.11 See 1997
Software License Agreement, pp. 33-34. Prior to that
agreement, in June 1997, Lindsay had independently
licensed the LCID to TAP. See June 1997 Licensing
Agreement, Schedule A. As a result, the version of ETech in 1997 included the LCID, which was co-authored by Brownstein and Lindsay.
In 1998, however, the settlement with LSDI significantly changed Brownstein’s ownership in the LCID.12
11

Although the combined system was not given the name ETech until December 2000, for the purposes of this Opinion, I will
refer to the system as E-Tech for all relevant periods.
12
Plaintiff argues that Defendants do not have standing to
use the 1998 LSDI Settlement Agreement as a defense on their
motion. Plaintiff reasons that because Defendants’ arguments
concerning the agreement are based on the rights of LSDI, they
may not assert them here. Plaintiff ’s argument is plainly without
merit. First, Defendants were signatories to the agreement, and

App. 30
LSDI filed suit against the following parties: 1) Lindsay; 2) Brownstein; 3) TAP; 4) CMR; 5) ET; and 6)
Nelson, an executive of CMR (collectively, “LSDI Defendants”). In that suit, LSDI alleged that Lindsay’s
copyrights, as well as the LCID, were owned by LSDI.
The parties eventually settled. In the settlement
agreement, the LSDI Defendants, which included
Brownstein, agreed not to claim ownership or any of
the rights to the LSDI program or any derivative work
thereof. See 1998 LSDI Settlement Agreement, ¶ 1. Importantly, the LSDI program refers to the version of
LCID that Plaintiff had created during his employment with LSDI. Indeed, that version of the LCID was
the same one that Lindsay had licensed to TAP in June
1997, which in turn was combined with CMR’s technology to create E-Tech. Pursuant to the terms of the settlement, the LSDI Defendants agreed that LSDI would
retain ownership of the 1998 version of LCID. However, Lindsay retained her sole ownership to the EDS
copyrights. See Id. at ¶ 2. In sum, the settlement agreement deprived Brownstein of ownership in the pre1998 version of the LCID. See Brownstein, 742 F.3d at
69 (“Brownstein’s copyrights and ownership interest
in his ETHN programs (and, by virtue thereof, the
LCID) were not affected by the series of agreements,
except to the extent that the 1998 LSDI Settlement
as such, they may make arguments regarding how the agreement
impacts this case. More importantly, the examination of the
agreement, here, focuses on what Brownstein had agreed to, in
order to settle the LSDI lawsuit; these considerations have nothing to do with the rights of LSDI. Accordingly, I reject Plaintiff ’s
argument in this regard.

App. 31
Agreement abrogated his ownership of the pre-1998
generations of the ETHN programs, the ‘LSDI Program.’ ” (emphasis added)).
Although ET continued to utilize Lindsay’s EDS
and/or later versions of the LCID after the 1998 LSDI
settlement, see December 2000 Agreement, the remaining operative question is whether the later versions of the LCID, or any derivatives thereof, continued
to use Plaintiff ’s computer code or ETHN programs
without compensation flowing to Brownstein. See
Brownstein, 742 F.3d at 67 (“[i]t is possible that the
post-1997 versions of the LCID continued to employ
the code created by Brownstein, but such determination would require additional factual development at
trial.”) In that regard, to survive summary judgment,
Plaintiff must present some evidence to show that ETech or the LCID, in their later versions, contained his
work. Plaintiff has failed to so. After years of discovery,
numerous rounds of motion practice, and a trial, Plaintiff still has not adduced any cogent evidence to establish that he is a co-author of any versions of the LCID,
and in turn E-Tech, after the 1998 LSDI settlement.13

13

Grasping at straws, Plaintiff argues that Section 2 of the
1998 LSDI Settlement Agreement provides that LSDI disclaimed
ownership of the “EDS and any derivative work thereof.” Because
the LCID is a derivative work of the EDS, Plaintiff contends that
LSDI had disclaimed ownership of the LCID. Plaintiff ’s argument is belied by the very language of section 2. What Plaintiff
fails to cite is the remaining language of section 2, which states
“unless otherwise provided herein (the settlement agreement).”
Indeed, the agreement recognizes that the LSDI Program, which

App. 32
In order to excuse his shortcoming, Plaintiff argues that Defendants’ argument related to the 1998
LSDI Settlement Agreement is contradicted by Lindsay’s repeated reference to the content of the LCID as
containing rules and programs. But, Lindsay’s assertion in that regard referred to the earlier version of the
LICD, prior to the 1998 LSDI Settlement Agreement.
See Brownstein, 742 F3d at 65. Plaintiff further argues
that Lindsay cannot seek to avoid the implications of
the unresolved ownership of the LCID by arguing that
the LCID that was licensed by her to TAP was different
and better than the LSDI Program referenced in the
settlement agreement. In so arguing, however, Plaintiff improperly transfers his burden of showing joint
authorship to Defendants. Put differently, it is not Defendants’ burden to demonstrate that the version of
the LCID licensed to TAP after the 1998 LSDI Settlement Agreement did not contain Plaintiff ’s computer
codes; instead, Plaintiff must make an affirmative
showing that later versions of the LCID included his
work, and he has come up empty handed in that respect.
Next, Plaintiff, in a certification, states that he
made independent contributions to the LCID after
leaving LSDI and that he personally created a merged
system comprised of the LCID and CMRs name system. More specifically, Plaintiff certifies that he created certain programs that represent updates and
revisions that he performed to the LCID, and in turn
refers to the 1997 version of the LCID, is a derivative work of the
EDS, and that LSDI retained ownership of that program.

App. 33
E-Tech, between July 1997 and November 1998. He
then attaches voluminous copies of the programs
printed in a word processor format. In fact, the majority of exhibits he attached to his certification are computer codes and rules in that context. Having reviewed
them, I do not find that Plaintiff has raised any genuine issue of material fact.
First, to the extent Plaintiff ’s revisions and updates to the LCID occurred prior to September 1998,
Plaintiff does not explain why those updates were not
subject to the 1998 LSDI Settlement Agreement; after
all, Plaintiff agreed to relinquish his rights to the LCID
up until September 1998. Second, to the extent Plaintiff created new or derivative works from the LCID or
the EDS after September 1998, the exhibits he attached to his certification, purportedly as evidence, are
not self-evident. For instance, the word documents,
which contain programs that Plaintiff proffers as purported revisions, are series of computer codes that this
Court has no expertise to translate. Plaintiff does not
have an expert to explain those codes or compare them
to earlier versions of the LCID, and Plaintiff, himself,
has not done so in his certification, except for selfserving, conclusory statements insufficient to defeat
summary judgment. See Paladino v. Newsome, 885
F.3d 203, 208 (3d Cir. 2018) (“conclusory, self-serving
affidavits are insufficient to withstand a motion for
summary judgment”); Kirleis v. Dickie, McCamey &
Chilcote, P.C., 560 F.3d 156, 161 (3d Cir. 2009). Without
an explanation or a proper comparison, the Court has
no basis to find that Plaintiff somehow created new

App. 34
derivative works that are separate and distinct from
the pre-1998 version of the LCID that he relinquished
to LSDI.14 Accordingly, Plaintiff ’s attempt to create issues of fact fails, and because Plaintiff cannot demonstrate, on this motion, that he is a co-author of a
version of the LCID or E-Tech licensed by ET after September 1998, Defendants’ motion for summary judgment is granted.
CONCLUSION
Based on the foregoing reasons, Plaintiff has failed
to raise any genuine issue of material fact to defeat
summary judgment. Accordingly, Defendants’ motion
is granted.
DATED: November 28, 2018
/s/ Freda L. Wolfson
Freda L. Wolfson, U.S.D.J.

14
Finally, Plaintiff submits a recent copyright that registered a version of the LCID, and the copyright identifies Brownstein and Lindsay as co-authors. Without regard to the propriety
of such copyright, the registration indicates that the date of first
publication of the LCID covered by the copyright was November
1, 1996. See Copyright Registration, TX 8-545-832. Thus, this registration still does not answer the relevant question here:
whether Plaintiff ’s work contributed to post-1998 versions of the
LCID or E-Tech.

App. 35
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 12-2506 & 12-4471
-----------------------------------------------------------------------

PETER BROWNSTEIN,
Appellant
v.
TINA LINDSAY; ETHNIC TECHNOLOGIES
-----------------------------------------------------------------------

APPEAL FROM THE UNITED STATES
DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
(D.C. Civ. Action No. 3-10-cv-1581)
District Judge: Honorable Joel A. Pisano
-----------------------------------------------------------------------

Argued July 10, 2013
-----------------------------------------------------------------------

Before: GREENAWAY, JR., SLOVITER, and BARRY,
Circuit Judges.
(Filed: January 29, 2014)
Jay R. McDaniel, Esq. [ARGUED]
McDaniel Law Firm
54 Main Street
Hackensack, NJ 07601
Counsel for Appellant

App. 36
Thomas S. Howard, Esq. [ARGUED]
Kirsch, Gartenberg & Howard
Two University Plaza
Suite 400
Hackensack, JN 07601-0000
Counsel for Appellees
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

GREENAWAY, JR., Circuit Judge.
This case concerns Appellant Peter Brownstein’s
claim under the Copyright Act seeking a declaratory
judgment of joint authorship of an ethnic identification
system that he created with Appellee Tina Lindsay, the
Lindsay Cultural Identification Determinate (“LCID”).
Lindsay purports to have conveyed the copyrights to
the LCID to Appellee Ethnic Technologies (“E-Tech”).
The contested work is a computer program that implements rules for identifying the ethnicity of proper
names for the purposes of direct marketing. In addition
to a declaration of his joint authorship, Brownstein
sought an accounting of the profits from the ethnic
identification system. In response, Appellees counterclaimed to cancel the copyright registrations that
Brownstein had received for the system’s computer
code, which was his contribution to the work.
After the District Court denied summary judgment, the case went to trial. At the end of Brownstein’s
case, the District Court granted Appellees judgment as

App. 37
a matter of law under Rule 50(a) on Brownstein’s joint
authorship claim. Fed. R. Civ. P. 50(a). The District
Court found that Brownstein’s claim was time-barred
and that he could not succeed on the merits of his claim
based on the evidence adduced at trial. The District
Court severed Appellees’ counterclaim and later issued
an opinion granting summary judgment to Appellees
on their counterclaim.
This appeal presents two issues of first impression
for our Circuit. The first is when a joint authorship
claim under the Copyright Act arises and accrues and
the second is whether courts have the authority to cancel copyright registrations. For the following reasons,
we hold that an authorship claim arises and accrues
when a plaintiff ’s authorship has been “expressly repudiated”. We also hold that courts have no authority
to cancel copyright registrations. We will reverse both
the District Court’s grant of judgment as a matter of
law to Appellees and its grant of summary judgment to
Appellees on their counterclaim. Also, we will remand
the case for a new trial.
I.

BACKGROUND

A.

BROWNSTEIN’S RELATIONSHIP
AND E-TECH

1.

WITH

LINDSAY

The Beginning

Brownstein and Lindsay worked together at Future Prospective Clients, Inc. (“FPCI”), a direct mailing
list company, when they began developing the ethnic
identification system. FPCI later assumed a new

App. 38
corporate identity, List Services Direct, Inc. (“LSDI”).1
Beginning around December 1993, Lindsay began devising the idea and developing the rules for categorizing names by ethnicity (e.g., by looking at first names,
last names, suffixes, prefixes, and geographic location).
These rules became known as the Ethnic Determinate
System (“EDS”)—they could be written out in text, just
as one might write out a recipe or driving directions.
The system would use this set of rules to run a computer program that would predict the ethnicity of a
random list of names from a direct mailing database.
In January 1994, Lindsay enlisted Brownstein to
turn her rules into computer code. This required
Brownstein to code a number of computer programs
that did everything from rewriting a list of names into
the proper data format for processing to turning Lindsay’s rules into computer code. These programs became
known as the ETHN programs.2 Over the years,
Brownstein improved and updated the ETHN programs, with each new generation of programs being a
distinct work from the previous generation. The combined system of Lindsay’s rules and Brownstein’s computer code was named the LCID. The result was that
Lindsay was the sole author of the EDS, as an independent work of the LCID, Brownstein was the sole
1

For our purposes, the two are interchangeable.
The programs are called the ETHN programs because they
were named ETHN04, ETHN05, etc. The computer code they contained were scripts of written commands that would be read by a
computer, which would then execute the commands to perform
the functions listed in the code.
2

App. 39
author of the ETHN programs, as another independent
work of the LCID, and they both had an equal authorship interest in the LCID as a joint work of the EDS
and the ETHN programs.
Lindsay and Brownstein did much of their work
on the LCID during company time. In June 1996, they
incorporated TAP Systems, Inc. (“TAP”) to commercialize the LCID. Lindsay and Brownstein were equal
owners of TAP and the LCID became known as the
TAP system.
Lindsay and Brownstein also decided to register
the copyrights to their work for extra security. Lindsay
received her first copyright registration for the EDS in
February 1996, entitled “An Ethnic Determinant
System—Knowledge and Rule/Exception Basis”. Copyright Registration No. TXu 730-872 (the “ ‘872 registration”). Later that year, in December 1996, Lindsay
received a second copyright registration to protect her
improved version of the EDS, which carried the same
title. Copyright Registration No. TXu 778-127 (the
“ ‘127 registration”). As such, the second registration
was for a “derivative work” of the first registration.3
The difference with the second registration is that she
included a copy of Brownstein’s ETHN programs as a
“deposit copy” for the ‘127 registration and several
fields of the registration application referenced a
“computer process” and “codes” associated with the
3

As will be discussed infra, a derivative work is an independently copyrightable work that is based upon a preexisting
work. 17 U.S.C. § 101.

App. 40
copyright.4 Lindsay applied for and secured both copyright registrations on her own, without the involvement of Brownstein, and listed herself as the only
author. She then gave Brownstein a copy of the copyright registrations to hold for safekeeping—he claims
that he never reviewed the registrations until many
years later, shortly before trial.
In the fall of 1996, Lindsay and Tom Raskin, an
executive at LSDI, had a confrontation over the copyright registration she had filed earlier that year for the
EDS, which Brownstein overheard and recounted in a
1997 affidavit. Raskin demanded that she turn over
the copyright registration to him because he believed
that LSDI was the rightful owner of her system. Lindsay refused, which infuriated Raskin to no end (and
would cause Raskin to later sue Lindsay and Brownstein). Eventually, with tension building between the
LSDI management and the duo, and their venture
gaining steam, they both left LSDI in June 1997.
Throughout this whole time, Brownstein let Lindsay handle TAP’s business affairs. He was so focused
on programming code for the LCID that he claims that
he did not know of a 1997 software license purportedly
granting TAP ownership of the LCID until 2009.

4

As will also be discussed infra, a deposit copy must be submitted with most registrations in order to provide an example of
the registered work. 17 U.S.C. §§ 407(a), 408(b).

App. 41
2.

The Progress of TAP

Over the course of several years, Lindsay executed
a number of agreements to form new business entities
to promote the LCID and to transfer ownership of the
LCID to those entities.
On June 1, 1997, Lindsay unilaterally attempted
to grant TAP ownership of the LCID (the combined
system of her rules and Brownstein’s ETHN programs). (App. 663 (Software License Agreement, June
1, 1997).) By doing so, Lindsay had hoped that TAP
would own the LCID and be able to exploit it freely.
Lindsay was the only signatory to that 1997 Software
License—she signed both as the “Copyright Holder” of
the LCID and the agent of TAP. Brownstein was not a
signatory to the license, nor was he asked to be one.
Later that year, Lindsay and Brownstein decided
to partner with one of their former employers, Consumers Marketing Research, Inc. (“CMR”), to create ETech, a joint venture between the two companies. A
September 26, 1997 License Agreement (the “1997
Agreement”) was signed only by Lindsay and CMR’s
executive, Ginger Nelson. The 1997 Agreement listed
Lindsay and Brownstein as executive officers of the
new venture (which was just called the “LLC” until a
superseding agreement in 2000 formally named the
venture “Ethnic Technologies, LLC”). (App. 631.) The
parties agreed to combine CMR’s technology with the
LCID (which was referred to as the “TAP SYSTEM”),
the combination of which would be called the E-Tech
system. The agreement also acknowledged that TAP

App. 42
owned the LCID. The superseding December 28, 2000
Agreement (the “2000 Agreement”) largely mirrored
the 1997 Agreement, except that it formally called the
joint venture “Ethnic Technologies, LLC” and the combined system “E-Tech”. (App. 639.) Lindsay and Nelson
were also the only signatories to the 2000 Agreement,
although Brownstein initialed three corrections made
to the agreement. (App. 640-41.) Thus, while Brownstein can be imputed with knowledge of these agreements as a 50% owner of TAP and an executive of
E-Tech, he never signed the agreements.
As an E-Tech executive, Brownstein executed five
licensing agreements to E-Tech customers between
2000 and 2005. (App. 695-702 (2001 Agreement with
Edith Roman Associates); App. 702-06 (2002 Agreement with Wells Fargo); App. 707-13 (2002 Agreement
with Penn Media); App. 714-20 (2003 Agreement with
Merkle Data Technologies); App. 721-27 (2005 Agreement with Central Address Systems, Inc.).) One of
these agreements acknowledged that the E-Tech system was the “exclusive property” of E-Tech, while the
four others acknowledged that E-Tech “owns all rights,
including copyrights” to the E-Tech system.
3.

The Aftermath

The remainder of Brownstein’s relationship with
E-Tech was marred by three lawsuits: the first initiated by LSDI in federal court, the second initiated by
him in New Jersey state court, and the third initiated
by him in federal court. Although Brownstein did not

App. 43
sign any of the aforementioned licensing agreements
(including the 1997 Software License, 1997 Agreement,
and 2000 Agreement), he did sign the two settlement
agreements related to litigation with LSDI in 1998 and
the New Jersey state court oppressed shareholder lawsuit in 2009.
In 1998, LSDI and Raskin (Lindsay and Brownstein’s former employer) sued TAP in the District of
New Jersey over its use of the LCID. That action eventually settled in September 1998, with LSDI retaining
rights to the ETHN programs written up to that point
(and any derivative works or modifications thereof ),
referred to as the “LSDI Program", and TAP retaining
the rights to the EDS (and any derivative works or
modifications thereof ).5
The September 18, 1998 Settlement Agreement
(the “1998 Settlement Agreement”) from the LSDI litigation stated 1) that Lindsay and Brownstein would
not claim rights to certain computer programs and
derivatives or modifications thereof (the “LSDI Program”) and 2) that they had rights to Lindsay’s copyrights. (App. 2768-69 (Settlement Agreement ¶¶ 1-3).)
Notably, the 1998 Settlement Agreement equated the
EDS with the LCID (“EDS which may be called
LCID”)—the District Court in this litigation found this

5

We need not determine whether post-1998 versions of the
ETHN programs are derivative works of the LSDI Program since
that issue is not before us on appeal.

App. 44
to be a critical fact.6 (App. 2769 (Settlement Agreement
¶ 3).)
In May 2009, Brownstein left E-Tech on bad terms.
He filed an oppressed shareholder lawsuit against
Lindsay and E-Tech in the Superior Court of New Jersey. This litigation settled in May 2010. During this
period, Brownstein filed for his own copyright registrations in December 2009, which covered his ETHN programs.
The May 25, 2010 Settlement Agreement (the
“2010 Settlement Agreement”) from the New Jersey
state court oppressed shareholder lawsuit 1) stated
that the terms of the settlement would not affect the
lawsuit leading to this appeal, which was then pending, 2) forced Brownstein to relinquish his interests in
E-Tech, and 3) released the defendants (Lindsay and
E-Tech) and Brownstein from related claims. (App.
519-24 (Settlement Agreement ¶¶ 2.6, 3.3, 5.1.1,
5.1.2).) Specifically, this 2010 Settlement Agreement
vitiated Brownstein’s “right, title, and interest” as a
“shareholder, officer, employee or director in TAP or as
manager, partner, member, officer, director or employee
of E-Tech”. (App. 520-21 (Settlement Agreement
¶ 2.6).)
Nevertheless, it was not until March 2010 that
Brownstein took affirmative steps to protect his joint
authorship of the LCID by filing the instant lawsuit
6

As will be noted infra, the District Court’s assumption was
incorrect because the 1998 Settlement Agreement could not define the scope of Brownstein’s and Lindsay’s copyrights.

App. 45
seeking declaratory judgment of his authorship of the
LCID (and, by virtue thereof, his ETHN programs)
against Lindsay and E-Tech. This lawsuit was instigated by Lindsay’s 2010 deposition testimony for the
New Jersey oppressed shareholder lawsuit, in which
she confirmed what Brownstein had not intuited until
then: She had submitted Brownstein’s ETHN programs with her second copyright registration, the ‘127
registration, and might be claiming sole authorship of
the LCID as a result. In total, he waited 14 years from
the date of Lindsay’s copyright registrations, 1996, to
file a lawsuit.
B.

THE DISTRICT COURT PROCEEDINGS

On March 22, 2010, Brownstein filed his complaint
in this instant action, which sought a declaratory judgment of joint authorship of the LCID, an accounting of
the profits from his joint authorship of the LCID, and
replevin of physical copies of the ETHN programs allegedly kept at E-Tech’s offices. Lindsay and E-Tech
filed a counterclaim to cancel Brownstein’s 2009 copyright registrations to the ETHN programs.
In February 2012, a jury trial was held in this action—the only witnesses called were Brownstein and
Lindsay. Brownstein testified first; Lindsay was then
called and Brownstein’s counsel conducted his direct
examination. Before Appellees’ counsel called Lindsay
as their own witness, Appellees moved under Rule 50
for judgment as a matter of law. The following day, the

App. 46
District Court heard oral argument on the motion and
ruled from the bench in Appellees’ favor.
1. The Rule 50(a) Ruling from the Bench (Brownstein’s Claim for Joint Authorship of the LCID)
The District Court granted Rule 50(a) judgment as
a matter of law in favor of Appellees on Brownstein’s
joint authorship claim.7 Foremost, the basis of the District Court’s ruling was that the statute of limitations
under the Copyright Act had run since Brownstein had
adequate notice of his authorship claim more than
three years prior to filing his complaint. (App. 1127-34
(Trial Tr. 333:9-340:3).) As the District Court framed it,
“[W]hy did [Brownstein] wait 14 years and [until after]
all of the other ensuing events without saying anything about it?” (App. 1130 (Trial Tr. 336:15-16).)
Under the “discovery rule”, the District Court
found that there were sufficient “storm warnings” to
Brownstein that Lindsay was claiming sole authorship
of the LCID, as far back as 1996. Finding that Lindsay’s act of registering her copyrights started the statute of limitations running, the District Court explained
that “there is evidence that the injurious act [of Lindsay applying for copyright registration] was actually
known as far back as 1996.” (App. 1131 (Trial Tr.
337:13-21).) The District Court found it dispositive
that Brownstein not only had the copyright registrations in his possession but that he also had “actual
7

There was also the replevin claim that the District Court
dismissed, but Brownstein has not appealed this decision.

App. 47
knowledge” of the series of agreements and the 1996
argument between Lindsay and Raskin, all of which
showed that Lindsay was holding herself out as the
sole author of the LCID. (App. 1133 (Trial Tr. 339:1024).) In particular, the District Court found that
Brownstein had conceded that Lindsay’s copyright registrations covered the LCID because he signed the
1998 Settlement Agreement, which the District Court
paraphrased as stating that “Tina Lindsay obtained a
Certificate of Registration from the copyright office in
1996 for EDS, which may be called LCID.” (App. 1132
(Trial Tr. 338:5-9).)
The District Court reasoned that “every . . . piece
of evidence in this case contradict[ed]” Brownstein’s
testimony that he had no clue that Lindsay was claiming to be the sole author of the LCID (including his
ETHN computer programs) until she gave her 2010
deposition. (App. 1133 (Trial Tr. 339:5-9).) From this,
the District Court concluded not only that Brownstein
had constructive knowledge that Lindsay considered
herself the sole author but also that he had actual
knowledge of it. The District Court also concluded that
there was no evidence that Lindsay ever considered
Brownstein a co-author of the LCID.
The District Court further ruled that Brownstein
was not a co-author of the LCID or of his computer programs because “there is no evidence to support this
claim of co-authorship in the record.” (App. 1133 (Trial
Tr. 339:5-12).) Therefore, the District Court reasoned,
even if he was not barred by the discovery rule and the

App. 48
statute of limitations, his claim would still fail on the
merits.
2. The Summary Judgment Opinion (Lindsay
and E-Tech’s Counterclaim to Cancel Brownstein’s Copyright Registrations)
After it granted Appellees’ Rule 50 motion on
Brownstein’s authorship claim, the District Court issued an opinion granting summary judgment on Appellees’ counterclaim to cancel Brownstein’s two
copyright registrations. The District Court found that
it had authority to cancel Brownstein’s copyright registrations because the “threshold determination as to
the ownership of the works at issue is to be made by
the Court, as [Appellees] seek to invalidate the registration because [Brownstein] had no right to register
the work, not because of some regulatory defect.” (App.
12-13 (Summ. J. Op. at 4-5).) The District Court proceeded to cancel Brownstein’s copyright registrations
because it had “previously found . . . that [Brownstein’s] co-authorship claim was without merit” in deciding the Rule 50 motion. (App. 13 (Summ. J. Op. at
5).) Thus, it concluded that Brownstein had no authorship interest in the LCID or his ETHN programs and
that all of the LCID and its derivatives were created
for TAP and owned exclusively by TAP. (App. 13
(Summ. J. Op. at 5).) The District Court noted that,
“specifically, the 1997 and 2000 agreements[ ] refer to
the relevant programs as belonging exclusively to
TAP.” (App. 13 (Summ. J. Op. at 5).) The District Court
also found that the 2010 Settlement Agreement from

App. 49
the New Jersey oppressed shareholder lawsuit relieved Brownstein of any “right, title and interest” in
TAP and E-Tech, including the LCID, which it found
that TAP and E-Tech owned. (App. 13 (Summ. J. Op. at
5).)
II. STATEMENT OF JURISDICTION
STANDARD OF REVIEW

AND

The District Court had jurisdiction under 28
U.S.C. §§ 1331, 1338, and 1367. We have jurisdiction
under 28 U.S.C. § 1291.
Our review of a judgment as a matter of law under
Rule 50(a) is plenary. Beck v. City of Pittsburgh, 89 F.3d
966, 971 (3d Cir. 1996). “A motion for judgment as a
matter of law under Federal Rule [of Civil Procedure]
50(a) ‘should be granted only if, viewing the evidence
in the light most favorable to the nonmoving party,
there is no question of material fact for the jury and
any verdict other than the one directed would be erroneous under the governing law.’ ” Id. (quoting Macleary
v. Hines, 817 F.2d 1081, 1083 (3d Cir. 1987)).
Our review of a district court’s grant of summary
judgment is plenary. William A. Graham Co. v.
Haughey, 568 F.3d 425, 437 (3d Cir. 2009). Summary
judgment may only be granted if there is no genuine
dispute as to a material fact and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ. P.
56(a).

App. 50
III.

ANALYSIS

Our Circuit has rarely had occasion to venture
into the area of joint authorship under the Copyright
Act. In Andrien v. Southern Ocean County Chamber of
Commerce, 927 F.2d 132 (3d Cir. 1991), we touched
upon the issue in determining whether a printer’s contribution to the printing of a map gave it joint authorship of the map or whether such contributions through
printing were works for hire. This is the first time that
our Circuit has faced a joint authorship claim squarely
on the merits.
In granting Appellees’ Rule 50 motion, the District
Court decided two factual issues. The first issue was
whether Brownstein was a co-author of the LCID. If he
was deemed a co-author, the second issue was whether
his joint authorship claim was barred by the statute of
limitations because he was put on inquiry notice that
Lindsay had disclaimed his co-authorship. In deciding
both of these issues, the District Court erred because
these were factual determinations that should have
been left to the jury. When viewed in the light most favorable to Brownstein, the evidence presented at trial
could allow him to succeed on his joint authorship
claim.
In granting summary judgment on Appellees’
counterclaim, the District Court determined that it
had the authority to invalidate Brownstein’s copyright
registrations. For the reasons that follow, the District
Court should not have granted summary judgment on

App. 51
the counterclaim because it had no authority to cancel
Brownstein’s copyright registrations.
We will address each of these three issues in
turn—whether Brownstein was a co-author of the
LCID, whether his claim is barred by the statute of
limitations, and whether the District Court had authority to cancel Brownstein’s copyright registrations.
A.

JOINT AUTHORSHIP

In order to reach the issue of when Brownstein’s
authorship claim arose and accrued, we must first determine if he was a co-author of the LCID.
1.

The LCID as a Joint Work

The issue at the root of this case is whether
Brownstein is a co-author of the LCID, which depends
on whether the LCID is a joint work. When two or more
people create a “joint work”, they become co-authors
and co-owners of the work, each entitled to “undivided
ownership in the entire work”. 1 Melville B. Nimmer &
David Nimmer, Nimmer on Copyright § 6.03 [hereinafter Nimmer on Copyright]; see 17 U.S.C. § 101 (defining
a “joint work”); Andrien, 927 F.2d at 136. This ownership interest vests from the act of creating the work,
rather than from any sort of agreement between the
authors or any act of registration with the Copyright
Office.
For two or more people to become co-authors, each
author must contribute some non-trivial amount of

App. 52
creative, original, or intellectual expression to the
work and both must intend that their contributions be
combined. 1 Nimmer on Copyright § 6.07; see Gaiman
v. McFarlane, 360 F.3d 644, 658-59 (7th Cir. 2004). The
components must also be “inseparable or interdependent” parts of a whole but each coauthor’s contribution
need not be equal for them to have an equal stake in
the work as a whole. 17 U.S.C. § 101; 1 Nimmer on Copyright § 6.03. Thus, if Person A writes lyrics to a song
and intends for a composer to write the score, Person
B who writes the score becomes a co-author in the
work. See Gaiman, 360 F.3d at 659 (providing the example of two co-authors, one a professor with brilliant
ideas and the other an excellent writer); Childress v.
Taylor, 945 F.2d 500, 504 (2d Cir. 1991) (holding that a
lyricist and composer of a song were co-authors “even
though the lyricist wrote the words before he knew the
identity of the composer who would later write the music”).
At oral argument, Appellees conceded that Brownstein and Lindsay were co-authors of the LCID up until its 1997 iteration. Oral Arg. at 17:10-19:00, 21:21-28
(July 10, 2013). This concession means that Appellees
admit that Brownstein contributed a non-trivial
amount of creative expression to the LCID through his
work on the ETHN programs and that Lindsay intended for the EDS to be combined with the computer
code he drafted to form the LCID. Moreover, this
framework concedes that the EDS and the ETHN programs are interdependent works, which comports with
Lindsay’s assertions. In both the 1997 Software

App. 53
License and her testimony at trial, she admitted that
her rules and Brownstein’s code were inseparable.
(App. 1050 (Trial Tr. 256:1 (“[The] LCID had to have
programs.”)).) In Schedule A of the license, she wrote
that the “series of computer programs” and “system
data” of the LCID were “irrevocably entwined”. (App.
668 (Software License Agreement, Schedule A).)
Importantly, this concession also means that Appellees admit that the ETHN programs were not works
for hire, as Lindsay had insinuated in some of her testimony at trial. The District Court also concluded that
the ETHN programs were works for hire in granting
summary judgment on Appellees’ counterclaim, which
was an argument that Appellees advanced in their answer and which we find to be in error.
To analogize here, Lindsay wrote the lyrics, while
Brownstein composed the score. The exception to this
joint authorship rule is the “work for hire” rule, where
a collaborator creates his contribution to the work as
part of his employment or for a commission.8 17 U.S.C.
§ 201(b); 1 Nimmer on Copyright § 5.03. In such a case,
authorship inures to the employer or commissioner. 17
U.S.C. § 201(b).
A work for hire requires that the work be made by
an employee within the scope of his or her employment
8

A classic example of a work made for hire is a magazine
article written by an editor employed by the magazine’s company.
Unless they agree otherwise, the editor’s employer, the magazine’s company, owns the copyright to his article, despite the fact
that he created the article with his own intellectual creativity.

App. 54
or that the work be commissioned. 17 U.S.C. § 101; see
1 Nimmer on Copyright § 5.03; Marco v. Accent Publ’g
Co., 969 F.2d 1547, 1549-50 (3d Cir. 1992); see also Warren Freedenfeld Assocs., Inc. v. McTigue, 531 F.3d 38, 48
(1st Cir. 2008). At trial, Lindsay claimed that she directed Brownstein on how to turn her rules into computer code. (App. 1051 (Trial Tr. 257:19-22 (“At my
direction. I told him exactly what to write.”)).) On the
other hand, Brownstein had to use his own intellectual
creativity to select the computer commands to use. He
controverted Lindsay’s testimony on the stand when
he testified that he automated Lindsay’s manually inputted list of rules and names, which gave Brownstein
“[q]uite a bit [of discretion]” in how he coded the ETHN
programs. (App. 910 (Trial Tr. 116:8-10).)
By every indication, and given Appellees’ concession, Brownstein’s computer programs were not works
for hire. 17 U.S.C. § 201(b). Brownstein was both an officer and shareholder of TAP and an officer of E-Tech.
He was not an employee of TAP or E-Tech; nor was he
commissioned to write the code by TAP or Lindsay.
Most importantly, he was not compensated for the express purpose of writing code for them.
2. The Effect of Lindsay’s and Brownstein’s
Copyright Registrations
Pivotal to this case is distinguishing an author’s
interest in the copyright to his work from the registration of his work. A “copyright”, as a right, vests immediately upon the creation of the work. 17 U.S.C.

App. 55
§ 201(a). For this reason, a copyright must not be confused with the act of registering that right. Registration serves primarily to create a record of the creation
of the work and it also allows the author to bring civil
claims under the Copyright Act. 17 U.S.C. § 411(a); 2
Nimmer on Copyright § 7.16.
With few exceptions, a deposit copy must be submitted with an application for copyright registration.
17 U.S.C. §§ 407(a), 408(b). A deposit copy does not necessarily limit the copyrightable work itself. 2 Nimmer
on Copyright § 7.17. Here, a deposit copy means that
Lindsay sent a physical printout of Brownstein’s code
to the Copyright Office for safekeeping (and was only
sent a deposit receipt in return), which would serve an
“archival function” in the event of infringement and
help elucidate her copyrightable work. Id.
a. Lindsay’s Copyrights and Copyright Registrations
Due to the District Court’s conflation of the EDS
and the LCID, which are distinct works with distinct
copyrights, it was misled into finding that Lindsay’s
copyright registrations covered the entire LCID, including Brownstein’s ETHN programs. This false
premise then led the District Court one step further to
conclude that Lindsay could unilaterally transfer ownership of the LCID through the trio of licensing agreements that she executed. The District Court largely
assumed that her copyright registrations covered the
entire LCID because Brownstein’s ETHN programs

App. 56
were included as a “deposit copy” with her second registration. But the District Court’s assumption is belied
by the copyright registrations themselves and the law
undergirding the registration process. Lindsay’s copyright registrations only cover the EDS.
Lindsay’s registrations did not extend to the LCID
as a whole or the ETHN programs. Notably, Lindsay’s
first registration was entitled “An Ethnic Determinant
System—Knowledge and Rule/Exception Basis”, which
unambiguously refers to the EDS, her system of rules.
Her second registration had the same title and was
marked as a derivative work of the first, so it, too, only
covered the EDS. The most significant difference between her two registrations is that the second registration included Brownstein’s ETHN programs as the
deposit copy and described the EDS as “[a] computer
system process and data rules” in the Nature of Authorship field of the registration application. She also
wrote “[a]dditional ethnic categories, additional rules,
names, codes . . . [d]escription of computer process included” in another field of the second registration. Nowhere, though, did she write “ETHN programs” in the
registration. Accordingly, her registrations could not
claim ownership of the ETHN programs simply based
on the contents of the deposit copy.
The District Court’s reliance on the deposit copy
as an indication of the second registration’s scope was
also misguided. Lindsay, herself, admitted as much at
trial. She testified that the deposit copy did not reflect
the scope of her copyrights or authorship, explaining
that the deposit copy of the ETHN programs was only

App. 57
meant to provide “an example” of how the EDS would
be implemented, not to claim ownership of Brownstein’s programs. (App. 1049 (Trial Tr. 255:1-4).)
Thus, the fact that Lindsay submitted Brownstein’s code in the form of the deposit copy does not establish that she held a copyright to his ETHN
programs or the LCID as a whole. Since Brownstein,
alone, wrote the code, the only rights Lindsay could
have had to his code would flow through the LCID as
a joint work with her rules. Further, even if her registrations covered the LCID and were entitled “The
LCID, Including the ETHN Programs”, that act would
not vest exclusive ownership of the LCID in Lindsay.
Brownstein would remain a co-author and co-owner
because copyright registration does not establish the
copyright, which attaches at the moment of creation.
Consequently, Lindsay’s copyright registrations, if anything, are merely placeholders for the indivisible joint
rights she inherently had in the EDS and the LCID
with Brownstein.
b. Brownstein’s Copyrights and Copyright Registrations
As mentioned above, Brownstein had copyrights
exclusively in his ETHN programs as an independent
work and non-exclusively in the LCID as a co-author.
In addition, he also had copyrights to whatever new
generations of the ETHN programs and LCID that he
created as “derivative works” of his first set of ETHN
programs and the LCID. Therefore, although LSDI

App. 58
retained rights to the ETHN programs that were considered the “LSDI Program” in the 1998 Settlement
Agreement, the subsequent generations of ETHN programs that Brownstein developed remained under his
ownership because they were derivative works of the
LSDI Program. Brownstein’s 2009 copyright registrations would, therefore, cover any post-1998 generations of the ETHN programs that were not covered by
the 1998 Settlement Agreement with LSDI.
3.

Derivative Works of the LCID

At oral argument, Appellees contended that the
post-1997 versions of the LCID are derivative works
and that, therefore, Brownstein has no rights to these
improved versions of the LCID. Appellees are correct
in one respect and wrong in another: The post-1997
versions of the LCID may indeed be derivative works
but Brownstein retains an interest in the post-1997
versions of the LCID insofar as they are based on any
version of the LCID to which he is a co-author. It is
possible that the post-1997 versions of the LCID continued to employ the code created by Brownstein, but
such a determination would require additional factual
development at trial.
Derivative works are works that build upon and
improve a previous work, such as a remix of an old
song. 17 U.S.C. § 103. While the original work may be
copyrightable, a derivative work is copyrightable on its
own basis. Id.; 1 Nimmer on Copyright § 3.04. Derivative work protection only extends to those parts of the

App. 59
derivative work that are novel beyond the original
work and the author or authors of the underlying work
retain their rights to their original work. See Dam
Things from Denmark, a/k/a Troll Co. ApS v. Russ Berrie & Co., 290 F.3d 548, 563 (3d Cir. 2002).
68*68 A copyright is better described as a bundle
of rights: the right to reproduce the copyrighted work,
the right to prepare derivative works from the copyrighted work, and the right to perform or display the
copyrighted work. 17 U.S.C. § 106; see Davis v. Blige,
505 F.3d 90, 98 (2d Cir. 2007). Thus, the author has the
exclusive right to produce derivative works. See Dun &
Bradstreet Software Servs., Inc. v. Grace Consulting
Inc., 307 F.3d 197, 212-13 (3d Cir. 2002); Dam Things
from Denmark, 290 F.3d at 563-64. If the original work
is copyrightable, then the original author or authors
must consent to the creation of a derivative work by a
third party—unauthorized creation of a derivative
work, which incorporates the original work, constitutes an infringement of the underlying work. 17
U.S.C. § 106; 1 Nimmer on Copyright § 3.04; Dun &
Bradstreet Software Servs., Inc., 307 F.3d at 212-13;
Dam Things from Denmark, 290 F.3d at 563-64.
As a result, even if Brownstein is not a co-author
of some of the derivative versions of the LCID, he remains the co-author of the underlying work and has an
ownership interest in derivative versions of the LCID
to the extent that they incorporate the underlying
work. The extent of Brownstein’s authorship and ownership of these derivative works is a factual question
that must be decided by a jury.

App. 60
4.

The License and Settlement Agreements

Having defined the inherent copyrights of Lindsay
and Brownstein, the next question is what rights were
conveyed by the series of license and settlement agreements. Some agreements purport to grant licenses,
while some purport to transfer ownership, but it is not
at all clear which agreements accomplish what.
With respect to licensing a joint work, each co-author is entitled to convey non-exclusive rights to the
joint work without the consent of his co-author. 1 Nimmer on Copyright § 6.10. See Davis, 505 F.3d at 98-100.
The only caveat is that the licensing author must account to his co-author for his fair share of profits from
any non-exclusive license. 1 Nimmer on Copyright
§ 6.12. If a co-author attempts to convey exclusive
rights, his co-author can convey the same exclusive
rights—in effect, such an exclusive license becomes a
non-exclusive license. Id. § 6.10; see Davis, 505 F.3d at
100-01 (“A co-owner may grant a non-exclusive license
to use the work unilaterally, because his co-owners
may also use the work or grant similar licenses to
other users and because the non-exclusive license presumptively does not diminish the value of the copyright to the co-owners.”). Accordingly, the only way for
truly exclusive rights to be conveyed to a joint work is
for all co-authors to consent to such an exclusive conveyance. As with tenants in common of real property, a
co-author can transfer or assign the rights to his ownership interest in the joint work, but this does not affect the ownership rights of his co-author. 1 Nimmer on
Copyright § 6.11; Davis, 505 F.3d at 99-100.

App. 61
With respect to transferring the ownership of a
joint work, a co-author cannot transfer the ownership
interest of his co-author. The Copyright Act’s “statute
of frauds” requires that any transfer of an ownership
interest must be signed and in writing. 17 U.S.C.
§ 204(a); see Barefoot Architect, Inc. v. Bunge, 632 F.3d
822, 827 (3d Cir. 2011).
Due to Appellees’ concession that Brownstein was
a co-author of the LCID through 1997, Lindsay could
not have transferred ownership of the LCID before
1998 without Brownstein’s consent in a writing with
his signature. Even if Lindsay’s registrations covered
the entire LCID, she would have had no authority to
convey an exclusive license to the joint work of the
LCID without Brownstein’s consent and could only
have assigned the rights to her own ownership interest
in the LCID. 1 Nimmer on Copyright §§ 6.10, 6.11; see
Davis, 505 F.3d at 99-100.
Under these facts, Lindsay could have only conveyed a non-exclusive license to the LCID to TAP (and,
subsequently, to E-Tech). Such non-exclusive licenses
to the LCID would have no effect on Brownstein’s
copyrights and ownership interest in his ETHN programs and the LCID. Accordingly, the only set of rights
to which Lindsay could have conveyed an exclusive license or transferred ownership on her own would be to
the EDS, of which she was the sole author. If Lindsay
did transfer her ownership of the EDS to TAP, that, too,
would not have disturbed Brownstein’s rights.

App. 62
Since the 1997 Agreement and 2000 Agreement
both emanate from the rights conveyed in the 1997
Software License, those two agreements rise and fall
with the 1997 Software License. Since the software license did not transfer Brownstein’s ownership interest
in the LCID as a joint work, neither could the 1997
Agreement or 2000 Agreement. The 2010 Settlement
Agreement did divest Brownstein of any interest he
had in TAP and E-Tech. But, if TAP and E-Tech never
had exclusive rights to Brownstein’s ETHN programs
as part of the LCID, then Brownstein could not be divested of those rights via the 2010 Settlement Agreement. Moreover, the 2010 Settlement Agreement only
quashed Brownstein’s “right, title, and interest” as a
“shareholder, officer, employee or director in TAP or as
manager, partner, member, officer, director or employee
of E-Tech”. It says nothing specifically about his rights
as co-author of the LCID or sole author of the ETHN
programs.
In sum, Brownstein’s copyrights and ownership
interest in his ETHN programs (and, by virtue thereof,
the LCID) were not affected by the series of agreements, except to the extent that the 1998 LSDI Settlement Agreement abrogated his ownership of the pre1998 generations of the ETHN programs, the “LSDI
Program".
B.

THE STATUTE OF LIMITATIONS

Even though Brownstein is a co-author of the
LCID through 1997 and possibly a co-author of

App. 63
derivative versions of the LCID created thereafter, an
open question remains about whether the statute of
limitations has run on his authorship claim. The statute of limitations under the Copyright Act is three
years for all civil actions.9 17 U.S.C. § 507(b). Here,
Brownstein must show that his joint authorship claim
did not begin to accrue until March 22, 2007, at the
latest.
1. Inquiry Notice of Brownstein’s Authorship
Claim
Once Brownstein was on inquiry notice of his authorship claim, his cause of action began to accrue and
the statute of limitations began to run. Deciding when
Brownstein was on inquiry notice of his authorship
claim depends on two determinations: 1) when a cause
of action first arose and 2) when he should have known
that a cause of action had arisen. In our Circuit, the
discovery rule governs the second determination, while
we adopt the express repudiation rule from our sister
circuits to govern the first.

9

Brownstein argues that the statute of limitations does not
even apply since Lindsay’s copyright registrations and agreements only related to the EDS and Brownstein is only seeking a
declaration that he is a co-author of the LCID. (Appellant’s Reply
Br. 11-15.) While it is true that Lindsay’s testimony at trial is internally inconsistent, Lindsay is still asserting in her counterclaim that she is the sole author of the LCID, which contests
Brownstein’s joint authorship of the LCID.

App. 64
a.

The Discovery Rule

We follow the “discovery rule” in determining
when a cause of action begins to accrue. The discovery
rule is a general inquiry notice rule, which states that
a claim accrues when the plaintiff discovers or should
have discovered with “due diligence” that his rights
had been violated. William A. Graham Co., 568 F.3d at
438. In William A. Graham Co., we extended the discovery rule to copyright actions, noting that eight of
our sister circuits had done the same. Id. at 433-37. We
held that a plaintiff would be able to discover his injury
with due diligence if there were “storm warnings”
which gave the plaintiff “sufficient information of possible wrongdoing to place [him] on inquiry notice . . . of
culpable activity.” Id. at 438 (internal quotation marks
omitted). The discovery rule also holds that the clock
only starts running once a cause of action arises since
a plaintiff cannot experience storm warnings of a violation until his rights have been violated. Id. at 43839. Consequently, prospective plaintiffs have no duty
to investigate future causes of action. Id. at 439.
b.

Express Repudiation

Since Graham does not establish when a cause of
action arises for declaration of authorship, we must
turn to our sister circuits for guidance.10
10

As of 1996, the Ninth Circuit observed that “[t]here is a
surprising lack of precedent on the question of when a cause of
action claiming co-ownership of a copyright accrues.” Zuill v. Shanahan, 80 F.3d 1366, 1370 (9th Cir. 1996). Likewise, as of 2005,

App. 65
The Ninth Circuit, Seventh Circuit, and Second
Circuit have adopted an “express repudiation” rule,
such that a joint authorship claim arises and an author
is alerted to the potential violation of his rights when
his authorship has been expressly repudiated by his
co-author. See Zuill, 80 F.3d at 1370-71; Gaiman, 360
F.3d at 653; Gary Friedrich Enters., LLC v. Marvel
Characters, Inc., 716 F.3d 302, 317 (2d Cir. 2013). Thus,
in assessing the accrual of a joint authorship claim, we
will apply the discovery rule to the express repudiation
rule. Fusing these two concepts, the discovery rule will
only apply once a plaintiff ’s authorship has been expressly repudiated since he can only be on inquiry notice once his rights have been violated.
This express repudiation rule spawned from a
Ninth Circuit case, Zuill v. Shanahan, 80 F.3d 1366
(9th Cir. 1996). Since Zuill, only a smattering of circuit
cases have endorsed the rule. See Cambridge Literary
Props., Ltd. v. W. Goebel Porzellanfabrik G.m.b.H. & Co.
KG., 510 F.3d 77, 88-89, 91 (1st Cir. 2007); Roger Miller
Music, Inc. v. Sony/ATV Publ’g LLC, 477 F.3d 383, 38990 (6th Cir. 2007). Similar to the discovery rule, the express repudiation rule looks for evidence that a coauthor has acted adversely to the plaintiff ’s status as
a co-author.11 See Gaiman, 360 F.3d at 653; Zuill, 80
the Eastern District of Michigan commented that “[t]here is surprisingly sparse precedent on the question of when a cause of action claiming co-ownership of a copyright accrues.” Diamond v.
Gillis, 357 F. Supp. 2d 1003, 1006 (E.D. Mich. 2005).
11
In Zuill, the plaintiffs’ joint authorship was expressly repudiated when the co-creator of Hooked on Phonics made declarations that he was the “sole” owner of the contested copyrights

App. 66
F.3d at 1370-71; Gary Friedrich Enters., LLC, 716 F.3d
at 317-19; see also Aalmuhammed v. Lee, 202 F.3d
1227, 1230-31 (9th Cir. 2000); Merchant v. Levy, 92 F.3d
51, 53, 56 (2d Cir. 1996). Many of these cases analogize
co-authors of copyrights to tenants in common of real
property. See Zuill, 80 F.3d at 1370; Gaiman, 360 F.3d
at 654; Davis, 505 F.3d at 98-99.
Applied here, Brownstein’s injury occurred whenever Lindsay expressly repudiated his joint authorship
of the LCID. This required that Lindsay do something
that communicated not merely that she is the author,
but that she is the sole author or that Brownstein is
not a co-author.12 For instance, this would occur if
Brownstein became aware that she was claiming that
she was the sole author of the LCID in an agreement
in a compensation contract reviewed by the putative co-creators
of the music and the co-creators saw a published version of the
work with the defendant listed as the only author. 80 F.3d at
1368. In Gaiman, the plaintiff ’s joint authorship claim was expressly repudiated when the defendant sent a letter to him which
stated that “all rights . . . shall continue to be owned” by the defendant’s company. 360 F.3d at 652. Unlike Brownstein, the
plaintiffs in those cases had no ownership interest in the entity
that was claimed to own the putative copyrights and they were
directly shown a document with a declaration of the defendants’
sole authorship.
12
A critical nuance is that Lindsay’s assertion of her sole authorship to unspecified copyrights in an agreement is not an express repudiation of Brownstein’s co-authorship of the LCID and
his sole authorship of his ETHN computer programs. If Lindsay’s
copyrights did not cover the joint work of the LCID but, instead,
only the EDS, then her declarations as sole author of her copyrights would have said nothing about Brownstein’s authorship of
his computer code.

App. 67
or if Brownstein overheard a conversation where Lindsay said that she commissioned Brownstein to do the
work for her as a work for hire. Or, as in Gaiman and
Zuill, this would happen if Lindsay directly sent
Brownstein a letter which stated that she was the sole
author of the LCID. Express repudiation could also occur if Lindsay was exploiting the LCID without remuneration to Brownstein. See, e.g., Gary Friedrich
Enters., LLC, 716 F.3d at 318-19; Cambridge Literary
Props., Ltd., 510 F.3d at 91.
The District Court considered the date of express
repudiation (which it characterized as the date of injury) to be the date that Lindsay registered her copyrights since, in listing herself as the only author of the
registration, she was implicitly disclaiming Brownstein’s joint authorship. (App. 1131 (Trial Tr. 337:13-15
(“In my view, the injurious act defined by the statute
actually occurred upon the registration of the copyright.”)).) This stretches the meaning of express repudiation too thin. The act of registering a copyright does
not repudiate co-authorship; put differently, the way to
expressly repudiate your co-author’s authorship is not
to register the copyright in your name.
As one of our sister circuits has held, a copyright
registration, standing alone, does not serve as repudiation of joint authorship because co-authors are not
expected to investigate the copyright register for
competing registrations. See Gaiman, 360 F.3d at
654-55. But see Saenger Org., Inc. v. Nationwide Ins.
Licensing Assocs., Inc., 119 F.3d 55, 66 (1st Cir. 1997)
(holding that copyright registration puts the world on

App. 68
constructive notice of ownership); Diamond v. Gillis,
357 F. Supp. 2d 1003, 1007 (E.D. Mich. 2005) (holding
that registration of a song qualified as express repudiation). In Gaiman, the Seventh Circuit held that the
purpose of a copyright registration is “not to start the
statute of limitations running” because it is not adverse to a co-author’s interest in the joint work. 360
F.3d at 653-54.
The peril of the District Court’s rationale is apparent: A challenger to a plaintiff ’s authorship could surreptitiously apply for copyright registration of the
plaintiff ’s work to start the statute of limitations running and, if the plaintiff did not discover the registration until three years thereafter, the plaintiff ’s
authorship would be nullified.
Appellees contend that blanket statements in
some of the agreements declaring Lindsay as the sole
author of the LCID expressly repudiated Brownstein’s
authorship rights. We disagree. The more apt inquiry
is whether any statement in the agreements was hostile or adverse to Brownstein’s authorship rights. See
Gaiman, 360 F.3d at 654; Zuill, 80 F.3d at 1370. For
repudiation to be express, it must be plain. See Aalmuhammed, 202 F.3d at 1230-31. A copyright holder
should not be required to investigate every whisper
and rumor that another has declared himself the author of his copyrighted work. See Gaiman, 360 F.3d at
654-55. A whisper or rumor also does not stir up the
type of “storm warning” that would put an author on
inquiry notice. It follows that, if an action is not hostile

App. 69
to an author’s rights, it may not be plain that his authorship rights have been repudiated.
There are several potential sources of express repudiation at play: Lindsay’s copyright registrations,
the 1996 argument between Lindsay and LSDI’s
Raskin, the trio of license agreements (the 1997 Software License, the 1997 Agreement, and the 2000
Agreement), the settlement agreements (the 1998 Settlement Agreement and the 2010 Settlement Agreement), and the E-Tech licensing agreements executed
by Brownstein (from 2000 until 2005). We will rule out
one of these sources and leave the others for the jury
to decide on remand.
i.

Lindsay’s Copyright Registrations

Lindsay’s copyright registrations could not have
expressly repudiated Brownstein’s rights since, by
their plain language, they only covered the EDS. As
discussed above, the deposit copy did not expand the
scope of her second registration by including Brownstein’s ETHN programs. More importantly, as just established, a registration does not expressly repudiate
authorship.
ii.

The 1996 Argument with Raskin

In the 1996 argument, which Brownstein recounted in his 1997 affidavit for the LSDI litigation,
Lindsay told Raskin that “the copyright was in her
name because she initiated it and did all the work and

App. 70
spent her own money and time to do it.” (App. 2744-45
(Brownstein Aff. ¶ 31).) This argument declared very
little expressly about Lindsay’s copyrights: It did not
identify the work to which she was claiming ownership
and, at that time, Raskin and LSDI were not yet aware
of the LCID (they were only aware of the EDS). As a
result, this 1996 argument did not necessarily provide
Brownstein a storm warning that Lindsay was repudiating his joint authorship of the LCID.
iii.

The 1997 Software License

The 1997 Software License is key because it is the
first link in the chain of title that Lindsay supposedly
conveyed through the trio of agreements – all of the
subsequent license and settlement agreements turn on
what was originally conveyed to TAP in this software
license. The 1997 Software License purported to give
TAP an exclusive license to the LCID, which included
Lindsay’s rules and Brownstein’s computer programs.
(See App. 668 (Software License Agreement, Schedule
A).) In her testimony, Lindsay explained that this was
her intention because the software license was supposed “to mak[e] sure that TAP owns both [the rules
and the computer code]”. (App. 1066 (Trial Tr. 272:1520).) Lindsay was the only signatory to the license,
both as the copyright holder and the representative of
TAP. Brownstein was not a signatory to the agreement,
which is the foible of Lindsay’s plans.
Interestingly, her intention to grant an exclusive
license to Brownstein’s ETHN programs, as part of the

App. 71
LCID, did not actually interfere with Brownstein’s
ownership rights. As described previously, a co-author
is allowed to grant a license to the joint work without
the consent or involvement of her co-author—but such
a license is treated like a non-exclusive license and
does not negate the other co-author’s ownership interest. 1 Nimmer on Copyright § 6.10; see Davis, 505 F.3d
at 99-100. Viewing the evidence in the light most favorable to Brownstein, it is possible that he thought
that the 1997 Software License merely conveyed a nonexclusive license for the LCID to TAP rather than declaring Lindsay the sole author of the LCID. Despite
her subjective thoughts or evaluations, Brownstein’s
rights were not adversely affected by Lindsay’s actions.
Further, a close look at the agreement shows that
the language does not state that Lindsay was the exclusive author or owner of the entire LCID. It vaguely
calls Lindsay the “Copyright Holder” without describing her specific copyright interests or referencing her
actual copyright registrations. (App. 663 (Software License Agreement, June 1, 1997).) A reader might assume from this that she is the sole copyright holder of
the LCID, but this would only be an assumption and
not based on the strict language of the agreement.
iv. The 1997 Agreement and the 2000 Agreement
The 1997 Agreement (which partnered TAP with
CMR) fares no better in Lindsay’s attempt to establish
express repudiation since it was contingent on the
rights held by TAP. The strongest language from this

App. 72
agreement only says that “TAP owns all rights, including copyrights” to the TAP system, which is the “exclusive property of TAP”. (App. 631.) As discussed above,
the 1997 Software License could not have conveyed
Brownstein’s ownership interest in the LCID to TAP
without his consent in a signed writing. At most, TAP
owned Lindsay’s ownership interest in the LCID.
In fact, the 1997 Agreement states that the joint
venture and the counterparty, CMR, “acknowledge at
all times that the original TAP SYSTEM [the LCID]
remains the property of TAP.” (App. 633.) How could
the property interest in the LCID be transferred to a
new owner if it remained the property of the original
owner? Thus, all the agreement actually did was give
the joint venture, what would become E-Tech, a nonexclusive license to use the LCID and allowed E-Tech
to combine the LCID with CMR’s technology. It said
nothing that was adverse to Brownstein’s ownership
interest in the LCID—his rights could co-exist with the
terms of the 1997 Agreement.
Although very similar to the 1997 Agreement, the
2000 Agreement did convey all of TAP’s assets to the
joint venture, but this also did not disturb Brownstein’s ownership interest in the copyrights to the
ETHN programs (and, by virtue thereof, the LCID). As
mentioned, all TAP possessed was a non-exclusive license to the LCID from the 1997 Software License and
possibly the assignment of Lindsay’s ownership interest in the LCID. Thus, contrary to Lindsay’s belief, the
2000 Agreement did not vest E-Tech with exclusive
ownership over the LCID. As long as his ownership

App. 73
rights remained intact, Brownstein might not have
seen any storm warnings requiring him to investigate
the potential repudiation of his authorship.
v.

The 1998 Settlement Agreement

The agreement which presents the most potential
for Lindsay’s argument is the 1998 LSDI Settlement
Agreement, which Brownstein actually signed and
which gave LSDI ownership over certain computer
code referred to as the “LSDI Program”. Lindsay
claims that it decreed her exclusive ownership of the
LCID by stating that her two copyrights cover the EDS
“which may be called [the] LCID”, but it is not for a
settlement agreement to define the scope of her copyrights or her copyright registrations.13 Such a misnomer did not necessarily serve as a storm warning of
repudiation of Brownstein’s joint authorship of the
LCID. Otherwise, it does not say much in her favor.
That language only renamed the EDS (which is all
her exclusive copyrights and her copyright registrations likely covered) as the LCID, for the purposes of
the agreement. Moreover, other language in the agreement controverts any exclusive ownership Lindsay
would have been given over the LCID in the agreement
by declaring that “Lindsay, Nelson, Brownstein, ET,
TAP and CMR . . . are the sole owners of the copyrights”. (App. 2772 (Settlement Agreement ¶ 18).)
13

A contract or agreement cannot alter copyrights or copyright registrations by simply renaming a work since nomenclature does not affect the substance or content of a work.

App. 74
Thus, if the settlement language governed the boundaries of the copyrights, then Lindsay would actually
have to share ownership in her copyrights with Brownstein and the other parties to the settlement agreement. It is surely difficult to characterize this as a
storm warning—if anything, it might have confirmed
for Brownstein that his rights to the LCID were preserved.
vi.

The 2010 Settlement Agreement

The 2010 Settlement Agreement is of little help to
Lindsay. She argues that, by disowning any “right, title
and interest” in E-Tech, Brownstein forfeited his ownership interests in his computer code. But what the
agreement actually says is that Brownstein forfeited
his rights and interest as a “shareholder, officer, employee or director in TAP or as manager, partner, member, officer, director or employee of E-Tech.” (App. 52021 (Settlement Agreement ¶ 2.6).) There is no basis to
argue that Brownstein’s independent ownership rights
in his ETHN programs were subsumed in his positions
in TAP or E-Tech. Further, as noted earlier, it is doubtful that TAP or E-Tech ever had exclusive ownership
of the LCID and Brownstein’s ETHN programs.
vii. Brownstein’s E-Tech Licensing Agreements
(2000-2005)
These standard consumer licensing agreements
state that E-Tech owns the copyrights to the E-Tech
system as its exclusive property, which is accurate and

App. 75
undisputed. Brownstein signed five of these agreements with E-Tech customers between 2000 and 2005,
which satisfies the statute of frauds and imputes him
with knowledge of their language. The distinguishing
and critical fact is that the E-Tech system is a joint
work formed from the combination of the LCID and
CMR’s own system. Therefore, by declaring that ETech owned the E-Tech system, the agreements were
not asserting that E-Tech owned the copyrights to the
LCID, which is a separately copyrightable component
of the E-Tech system. It is plausible that Brownstein
might have been put on inquiry notice by these agreements but, viewing the evidence in the light most favorable to Brownstein, it is also plausible that these
agreements would not have provided storm warnings
of repudiation—after all, Brownstein would not have
been concerned with, and has never claimed authorship of, the E-Tech system.
c.

Questions Remaining for the Jury

Based on these potential sources of express repudiation, the District Court made its Rule 50(a) ruling
when there were still genuinely disputed issues of material fact to be decided by the jury. As mentioned,
Lindsay’s registrations, standing alone, could not have
repudiated Brownstein’s authorship as a matter of law.
All the other potential sources of repudiation—the
argument with Raskin, the 1997 Software License, the
Agreement and 2000 Agreement, the 1998 Settlement
Agreement, and the 2010 Settlement Agreement—

App. 76
involved factual determinations that should have been
left for a jury. Accordingly, the issues of whether these
six sources expressly repudiated Brownstein’s authorship were inappropriately decided under Rule 50(a)
and should have gone to the jury.
C. CANCELLATION OF BROWNSTEIN’S COPYRIGHT
REGISTRATIONS
In granting summary judgment to Appellees on
their counterclaim, the District Court ordered the cancellation of Brownstein’s 2009 copyright registrations.
The District Court was in error ab initio. We hold that
courts have no authority to cancel copyright registrations because there is no statutory indication whatsoever that courts have such authority. Also, there is
substantial indication that courts do not have such authority.
Like most courts, our Circuit has never had the
chance to ascertain the role of courts in the cancellation of copyright registrations. Of the few courts to do
so, several have concluded that courts have no inherent or statutory authority to cancel copyright registrations. See Xerox Corp. v. Apple Computer, Inc., 734
F. Supp. 1542, 1549 (N.D. Cal. 1990) (basing its decision on the Copyright Act, its legislative history, and
Copyright Office regulations); Leegin Creative Leather
Prods., Inc. v. M.M. Rogers & Co., No. 94-4644, 1994 WL
761725, at *2 (C.D. Cal. Oct. 24, 1994) (observing that
the Copyright Act and Copyright Office regulations do
not call for judicial cancellation of registrations);

App. 77
Syntek Semiconductor Co. v. Microchip Tech. Inc., 307
F.3d 775, 781-82 (9th Cir. 2002) (holding that cancellation of a copyright registration is an administrative
remedy that must be sought from the Copyright Office). We agree.
Most decisively, there is no statutory authority in
the Copyright Act that gives courts any general authority to cancel copyright registrations. 17 U.S.C.
§ 101 et seq.; see 5 William Parry, Patry on Copyright
§ 17:108. In fact, there is evidence that the statute does
not give courts any such authority. Section 701, which
describes the functions of the Copyright Office, explicitly states that “[a]ll administrative functions and duties under this title, except as otherwise specified, are
the responsibility of the Register of Copyrights.” 17
U.S.C. § 701(a) (emphasis added). Cancellation of a
copyright registration is certainly an administrative
function, at least as much as issuing a registration is
an administrative function.14 See Syntek Semiconductor Co., 307 F.3d at 781-82.

14

Quizzically, Brownstein argues that the District Court had
authority to cancel his registrations, but we disagree. Brownstein
suggests that the requisites of § 411(b), which establish the criteria for obtaining a copyright registration, also implicitly provide
the criteria for courts to cancel a registration. 17 U.S.C. § 411(b).
But a list of requirements is not a grant of authority. Section
411(b) states that “the court shall request the Register of Copyrights to advise the court whether the inaccurate information, if
known, would have caused the Register of Copyrights to refuse
registration,” but it does not actually give courts authority to cancel a copyright registration. Id. If anything, this suggests that
courts are not to adjudicate the grounds of cancellation because

App. 78
It is also telling that the Lanham Act explicitly
provides courts with the general authority to cancel
trademarks. 15 U.S.C. § 1119 (“In any action involving
a registered mark the court may determine the right
to registration, order the cancellation of registrations,
in whole or in part, restore canceled registrations, and
otherwise rectify the register with respect to the registrations of any party to the action.”). If Congress had
intended to grant courts the same general authority
with respect to copyright registrations, it could have
done so in equally express statutory language.
It bears noting that there is a provision in the Copyright Act that grants courts cancellation authority
with respect to “original designs”.15 17 U.S.C. § 1324. In
carving out a specific power of cancellation, this provision only further suggests that courts have no general
authority to cancel copyright registrations. It is surely
they are limited to consulting the Register of Copyrights on such
matters.
Brownstein also points to the cancellation regulation, 37
C.F.R. § 201.7, as evidence that Congress intended for courts to
cancel copyright registrations. While § 201.7(b) clearly enumerates the requirements for cancellation of registration, § 201.7(a)
also clearly delegates that authority to the Copyright Office. 37
C.F.R. § 201.7(a) (“Cancellation is an action taken by the Copyright Office. . . .”). This only reaffirms that the authority to cancel
copyright registrations resides with the Copyright Office.
15
Entitled “Power of court over registration", this provision
recites that “[i]n any action involving the protection of a design
under this chapter, the court, when appropriate, may order registration of a design under this chapter or the cancellation of such
a registration" – thus, it only applies to designs and only to that
chapter of the Copyright Act. 17 U.S.C. § 1324.

App. 79
indicative that there is no such general cancellation
provision in the Copyright Act. Where Congress has
used language in one provision but excluded it from
another, we must generally ascribe meaning to the exclusion. Barnhart v. Sigmon Coal Co., 534 U.S. 438,
452-53 (2002); Russello v. United States, 464 U.S. 16, 23
(1983). Moreover, § 1324 would be superfluous if Congress intended for courts to already have the general
authority to cancel copyright registrations.
This does not mean that courts have no place in
the cancellation process and that aggrieved parties are
without recourse to the courts when faced with faulty
registrations. While courts may not directly cancel copyright registrations, courts have an oversight role in
the administrative functions of the Copyright Office.
All actions of the Copyright Office are subject to the
Administrative Procedure Act (“APA”) and the judicial
review attendant to the APA. 17 U.S.C. § 701(e) (“Except as provided by section 706(b) and the regulations
issued thereunder, all actions taken by the Register of
Copyrights under this title are subject to the provisions of the Administrative Procedure Act. . . .”). Thus,
aggrieved parties may challenge an unfavorable decision by the Copyright Office in a cancellation matter
by challenging its decision in court under the APA.
It also goes without saying that courts are authorized to police copyright registrations through authorship claims and infringement claims. As emphasized
earlier, a registration does not secure or create a copyright, as a right, or guarantee success on the merits of
a claim—it entitles an author to bring an action under

App. 80
the Copyright Act and serves as proof of authorship of
the copyrighted work.
Finally, we are in no way holding that courts are
incapable of invalidating underlying copyrights. While
the two concepts are undoubtedly related,16 the distinction matters. Holding that federal courts have the authority to cancel registrations would essentially be
declaring that the judicial branch has the authority to
order a legislative branch agency that is not a party to
the litigation to take an affirmative action. A federal
court’s finding that a copyright is invalid, on the other
hand, is a determination of ownership which does not
disturb the registration of a copyright. Courts have no
authority to cancel copyright registrations because
that authority resides exclusively with the Copyright
Office.
IV.

CONCLUSION

For the foregoing reasons, we will reverse the District Court’s Rule 50(a) grant of judgment as a matter
of law on Brownstein’s joint authorship claim and remand for a new trial. We will also reverse the District

16

Validity of a copyright denotes ownership—a necessary
element to bring a copyright infringement action. See Masquerade
Novelty, Inc. v. Unique Indus., Inc., 912 F.2d 663, 667 (3d Cir.
1990) (“ ‘The elements of a copyright infringement action are
(1) ownership of a valid copyright and (2) copying by the alleged
infringer.’ ”) (internal citations omitted). Registration of a copyright, on the other hand, is merely “ ‘prima facie evidence of the
validity of the copyright. . . .’ ” Id. (quoting 17 U.S.C. § 410(c)).

App. 81
Court’s grant of summary judgment on Appellees’
counterclaim to cancel Brownstein’s copyright registrations.

App. 82
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3711
-----------------------------------------------------------------------

PETER BROWNSTEIN,
Appellant
v.
TINA LINDSAY; ETHNIC TECHNOLOGIES, LLC
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(No. 3-10-cv-1581)
District Judge: Hon. Freda L. Wolfson
-----------------------------------------------------------------------

PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed: Jun. 18, 2020)
-----------------------------------------------------------------------

BEFORE: SMITH, Chief Judge, and MCKEE,
AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
and FUENTES,* Circuit Judges
-----------------------------------------------------------------------

* Judge Fuentes’s vote is limited to panel rehearing only.

App. 83
The petition for rehearing filed by appellant Peter
Brownstein in the above-captioned matter has been
submitted to the judges who participated in the decision of this Court and to all other available circuit
judges of the Court in regular active service. No judge
who concurred in the decision asked for rehearing, and
a majority of the circuit judges of the Court in regular
active service who are not disqualified did not vote for
rehearing by the Court en banc. It is now hereby ORDERED that the petition is DENIED.
BY THE COURT,
/s/ Paul B. Matey
Circuit Judge
Dated: June 18, 2020
CJG/cc: Jay R. McDaniel, Esq.
Jesse C. Klaproth, Esq.

App. 84
CONSTITUTIONAL AND
STATUTORY PROVISIONS
United States Constitution
Patents and Copyrights
The Congress shall have Power . . . To promote the Progress of Science and useful Arts, by securing for limited
Times to Authors and Inventors the exclusive Right to
their respective Writings and Discoveries;
U.S. Const. art. I, § 8, cl. 8

United States Copyright Act
Definitions
“Copyright owner”, with respect to any one of the exclusive rights comprised in a copyright, refers to the
owner of that particular right.
17 U.S.C. § 101
A work is “created” when it is fixed in a copy or
phonorecord for the first time; where a work is prepared over a period of time, the portion of it that has
been fixed at any particular time constitutes the work
as of that time, and where the work has been prepared
in different versions, each version constitutes a separate work.
17 U.S.C. § 101
A “derivative work” is a work based upon one or more
preexisting works, such as a translation, musical

App. 85
arrangement, dramatization, fictionalization, motion
picture version, sound recording, art reproduction,
abridgment, condensation, or any other form in which
a work may be recast, transformed, or adapted. A work
consisting of editorial revisions, annotations, elaborations, or other modifications which, as a whole, represent an original work of authorship, is a “derivative
work”.
17 U.S.C. § 101
A “joint work” is a work prepared by two or more authors with the intention that their contributions be
merged into inseparable or interdependent parts of a
unitary whole.
17 U.S.C. § 101
Subject Matter of Copyright
(a) The subject matter of copyright as specified by
section 102 includes compilations and derivative
works, but protection for a work employing preexisting
material in which copyright subsists does not extend
to any part of the work in which such material has
been used unlawfully.
(b) The copyright in a compilation or derivative work
extends only to the material contributed by the author
of such work, as distinguished from the preexisting
material employed in the work, and does not imply any
exclusive right in the preexisting material. The copyright in such work is independent of, and does not
affect or enlarge the scope, duration, ownership, or

App. 86
subsistence of, any copyright protection in the preexisting material.
17 U.S.C. § 103
Exclusive Rights in Copyrighted Works
Subject to sections 107 through 122, the owner of copyright under this title has the exclusive rights to do
and to authorize any of the following:
(1) to reproduce the copyrighted work in copies or
phonorecords;
(2) to prepare derivative works based upon the copyrighted work;
(3) to distribute copies or phonorecords of the copyrighted work to the public by sale or other transfer of
ownership, or by rental, lease, or lending;
(4) in the case of literary, musical, dramatic, and choreographic works, pantomimes, and motion pictures
and other audiovisual works, to perform the copyrighted work publicly;
(5) in the case of literary, musical, dramatic, and choreographic works, pantomimes, and pictorial, graphic,
or sculptural works, including the individual images of
a motion picture or other audiovisual work, to display
the copyrighted work publicly; and

App. 87
(6) in the case of sound recordings, to perform the
copyrighted work publicly by means of a digital audio
transmission.
17 U.S.C. § 106
Ownership of Copyright
a) Initial Ownership. – Copyright in a work protected under this title vests initially in the author or
authors of the work. The authors of a joint work are
coowners of copyright in the work.
17 U.S.C. § 201
Ownership of copyright as distinct from ownership of material object
Ownership of a copyright, or of any of the exclusive
rights under a copyright, is distinct from ownership of
any material object in which the work is embodied.
Transfer of ownership of any material object, including
the copy or phonorecord in which the work is first fixed,
does not of itself convey any rights in the copyrighted
work embodied in the object; nor, in the absence of an
agreement, does transfer of ownership of a copyright
or of any exclusive rights under a copyright convey
property rights in any material object.
17 U.S.C. § 202

App. 88
Execution of transfers of copyright ownership
(a) A transfer of copyright ownership, other than by
operation of law, is not valid unless an instrument of
conveyance, or a note or memorandum of the transfer,
is in writing and signed by the owner of the rights conveyed or such owner’s duly authorized agent.
17 U.S.C. § 204

